<html>
<title> - RAISING THE BAR: REVIEWING STEM EDUCATION IN AMERICA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       RAISING THE BAR: REVIEWING

                       STEM EDUCATION IN AMERICA
=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,

                   ELEMENTARY AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION

                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 10, 2013

                               __________

                           Serial No. 113-12

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
80-235                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

John Kline, Minnesota                Carolyn McCarthy, New York,
Thomas E. Petri, Wisconsin             Ranking Minority Member
Virginia Foxx, North Carolina        Robert C. ``Bobby'' Scott, 
Kenny Marchant, Texas                    Virginia
Duncan Hunter, California            Susan A. Davis, California
David P. Roe, Tennessee              Raul M. Grijalva, Arizona
Glenn Thompson, Pennsylvania         Marcia L. Fudge, Ohio
Martha Roby, Alabama                 Jared Polis, Colorado
Susan W. Brooks, Indiana             Gregorio Kilili Camacho Sablan,
                                       Northern Mariana Islands
                                     Frederica S. Wilson, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 10, 2013...................................     1

Statement of Members:
    McCarthy, Hon. Carolyn, ranking minority member, Subcommittee 
      on Early Childhood, Elementary and Secondary Education.....     4
        Prepared statement of....................................     5
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary and Secondary Education.........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Kurtz, Bill, chief executive officer, DSST Public Schools, 
      Denver, CO.................................................    21
        Prepared statement of....................................    23
    Miaoulis, Dr. Ioannis, president and director, Museum of 
      Science, Boston, MA; founding director, National Center for 
      Technological Literacy.....................................    11
        Prepared statement of....................................    13
    Schneider, Steve, Ph.D., senior director, STEM Program, 
      WestEd.....................................................    14
        Prepared statement of....................................    16
    Scott, George A., Director for Education, Workforce, and 
      Income Security Issues, U.S. Government Accountability 
      Office.....................................................     7
        Prepared statement of....................................    11


                       RAISING THE BAR: REVIEWING
                       STEM EDUCATION IN AMERICA

                              ----------                              


                       Wednesday, April 10, 2013

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Kline, Foxx, Roe, 
Thompson, Roby, Brooks, McCarthy, Davis, Polis, and Sablan.
    Also present: Representatives Holt and Bonamici.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
Heather Couri, Deputy Director of Education and Human Services 
Policy; Lindsay Fryer, Professional Staff Member; Nancy Locke, 
Chief Clerk/Assistant to the General Counsel; Krisann Pearce, 
General Counsel; Mandy Schaumburg, Education and Human Services 
Oversight Counsel; Dan Shorts, Legislative Assistant; Nicole 
Sizemore, Deputy Press Secretary; Alissa Strawcutter, Deputy 
Clerk; Brad Thomas, Senior Education Policy Advisor; Tylease 
Alli, Clerk/Intern Coordinator; Jeremy Ayers, Minority 
Education Policy Advisor; Meg Benner, Minority Education Policy 
Advisor; Kelly Broughan, Minority Education Policy Associate; 
Jamie Fasteau, Minority Director of Education Policy; Scott 
Groginsky, Minority Education Policy Advisor; Brian Levin, 
Minority Deputy Press Secretary/New Media Coordinator; and 
Megan O'Reilly, Minority General Counsel.
    Chairman Rokita. A quorum being present, the subcommittee 
will come to order. Good morning, everyone.
    I would like to start by, as usual, thanking our panel of 
witnesses for joining us today. This hearing provides a 
valuable opportunity to discuss the state of science, 
technology, engineering, and mathematics--or STEM, as we call 
it--education in America.
    In the past 10 years the number of STEM jobs grew three 
times faster than non-STEM jobs. In the next 10 years the 
Bureau of Labor Statistics expects the United States to create 
9.2 million jobs in STEM fields.
    STEM occupations offer the kind of competitive wages this 
nation needs to drive our economic recovery. On average, STEM 
workers earn 26 percent more than their counterparts.
    Unfortunately, the supply of workers with the skills needed 
to fill these in-demand positions has fallen short. Many job 
creators and economists have raised concerns that schools are 
not adequately preparing students for careers in high-demand 
STEM fields.
    Recent studies have ranked the math and science achievement 
of American students far behind students of other developed 
nations. According to a 2010 National Academies Report, the 
United States ranks 27th among developed countries in the 
proportion of college students' earning bachelor's degrees in 
science and engineering.
    The federal government has tried to take an active role in 
improving STEM education, but recent reports have shown that 
taxpayers' multi-billion dollar investments are failing to 
produce the results that were expected. The Government 
Accountability Office found in fiscal year 2010 that 209 
programs operated by 13 different agencies invested over $3 
billion in efforts designed to increase knowledge of STEM 
fields and attainment of STEM degrees. The GAO further found 
that 83 percent of the programs identified overlap with at 
least one other program and many of the programs lacked any 
sort of strategic plan or accountability standards.
    In 2010 the President's Council of Advisors on Science and 
Technology found STEM education programs across several 
agencies lacked coherent vision or careful oversight of goals 
and outcomes.
    These findings are not entirely surprising, unfortunately. 
Too often we see taxpayer dollars invested in efforts to tackle 
our critical issues but we rarely see a return on the 
investment. Instead our problems are exacerbated by a growing 
maze of bureaucratic programs that have no clear strategy or 
vision.
    For this reason, before we jump simply into creating new 
federal initiatives, we suggest we must first evaluate our 
existing STEM education programs. We must ensure our federal 
resources are used more efficiently to give students the 
opportunity to embrace and succeed in science, technology, 
engineering, and math subjects.
    America, as we all know and should feel, is renowned for 
innovation. Throughout our history, we have encouraged the kind 
of visionary thinking that led Orville and Wilbur Wright to 
build and successfully fly the world's first airplane, Dr. 
Jonas Salk to discover the vaccine for polio, and Steve Jobs to 
change the world right from his parents' garage.
    These remarkable inventions have improved our daily lives 
and helped this country rise to greatness. In order for the 
United States to continue to be a global leader we must find 
better ways to help our children pursue the jobs of the 21st 
century so that we can compete in the 21st century and win.
    In my state of Indiana, and specifically my 4th District 
which I represent, is the home to one of the finest 
institutions for preparing American leaders in the STEM fields. 
It is called Purdue University.
    Purdue is known as the ``cradle of astronauts'' because 23 
alumni have served as astronauts. These include Neil Armstrong 
and Gene Cernan, the first and last astronauts to walk on the 
moon.
    And so as we discuss how to prepare the children of 
tomorrow for STEM jobs, members of the Purdue community and 
people all across Indiana and I hope this nation will be paying 
particularly close attention. I look forward to learning how we 
can enhance our STEM education efforts and discussing 
opportunities for improvement.
    And now I will yield to my distinguished colleague and 
ranking member, Carolyn McCarthy, for her opening remarks.
    [The statement of Mr. Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary and Secondary Education

    Good morning. I'd like to start by thanking our panel of witnesses 
for joining us today. This hearing provides a valuable opportunity to 
discuss the state of science, technology, engineering and mathematics, 
or STEM, education in America.
    In the past 10 years the number of STEM jobs grew three times 
faster than non-STEM jobs. In the next 10 years, the Bureau of Labor 
Statistics expects the United States to create 9.2 million jobs in STEM 
fields.
    STEM occupations offer the kind of competitive wages this nation 
needs to drive our economic recovery. On average, STEM workers earn 26 
percent more than their counterparts.
    Unfortunately, the supply of workers with the skills needed to fill 
these in-demand positions has fallen short. Many job creators and 
economists have raised concerns that schools are not adequately 
preparing students for careers in high-demand STEM fields.
    Recent studies have ranked the math and science achievement of 
American students far behind students of other developed nations. 
According to a 2010 National Academies Report, the United States ranks 
27th among developed countries in the proportion of college students 
earning bachelor's degrees in science or engineering.
    The federal government has taken an active role in improving STEM 
education, but recent reports have shown that taxpayers' multi-billion 
dollar investments are failing to produce results. The Government 
Accountability Office found in Fiscal Year 2010, 209 programs operated 
by 13 different agencies invested over $3 billion in efforts designed 
to increase knowledge of STEM fields and attainment of STEM degrees.
    GAO further found that 83 percent of the programs identified 
overlap with at least one other program, and many of the programs 
lacked any sort of strategic plan or accountability standards.
    In 2010 the President's Council of Advisors on Science and 
Technology found STEM education programs across several agencies lacked 
a coherent vision or careful oversight of goals and outcomes.
    These findings are not entirely surprising. Too often we see 
taxpayer dollars invested in efforts to tackle our critical issues, but 
we rarely see a return on this investment. Instead our problems are 
exacerbated by a growing maze of bureaucratic programs that have no 
clear strategy or vision.
    For this reason, before we jump to simply create new federal 
initiatives, we must first evaluate our existing STEM education 
programs. We must ensure our federal resources are used more 
efficiently to give students the opportunity to embrace and succeed in 
STEM subjects.
    America is renowned for innovation. Throughout our history, we have 
encouraged the kind of visionary thinking that led Orville and Wilbur 
Wright to build and successfully fly the world's first airplane, Dr. 
Jonas Salk to discover the vaccine for polio, and Steve Jobs to change 
the world right from his parents' garage with the first personal 
computer.
    These remarkable inventions have improved our daily lives and 
helped this country rise to greatness. In order for the United States 
to continue to be a global leader, we must find better ways to help our 
children pursue the jobs of the future.
    My state of Indiana, and specifically the 4th District, which I 
represent, is home to one of the finest institutions for preparing 
American leaders in the STEM fields--Purdue University. Purdue is known 
as the ``cradle of astronauts,'' because 23 alumni have served as 
astronauts. These include Neil Armstrong and Gene Cernan, the first and 
last astronauts to walk on the moon. And so as we discuss how to 
prepare the children of tomorrow for STEM jobs, members of the Purdue 
community and folks all across Indiana will be paying particularly 
close attention.
    I look forward to learning how we can enhance our STEM education 
efforts and discussing opportunities for improvement. I will now yield 
to my distinguished colleague, Carolyn McCarthy, for her opening 
remarks.
                                 ______
                                 
    Mrs. McCarthy. Thank you, Mr. Chairman, and thank you for 
calling this hearing. It is extremely important.
    And I want to say thank you to the witnesses. We are 
looking forward to your testimony even though we have already 
read it, but I think it is a great opportunity to educate us on 
this issue as we go forward.
    I am happy to say that being that I am on this Education 
Committee for all these years, when my grandson was born I was 
determined to make him a scientist. And I am happy to say that 
for the last 5 years he has been going to Hofstra University, 
even though he is only in 12th grade, taking science and math 
courses.
    So we are going forward, but there have got to be a lot 
more young people getting interested in these subjects.
    Science, technology, engineering, and mathematics, or STEM, 
as the chairman said, education is a worthwhile investment that 
the Congress must consider furthering. The 21st century 
economyeconomics will be driven by innovation, and STEM 
education is the key to meeting global needs.
    Nationally there are some positive trends in STEM 
education. Enrollments are up 35 percent in science and 
engineering fields over the last decade, and generally, 
enrollments are up among minorities, as well.
    That said, there are still looming concerns. As a nation we 
are not faring as well as we could be in comparison to other 
countries. There are still significant achievement gaps among 
minorities and there are real concerns that this country may 
not be able to meet STEM labor demands as we go forward.
    Mr. Chairman, this subcommittee can and must commit to 
addressing these concerns.
    Moreover, I firmly believe that a majority, if not all, of 
these issues can be solved with more robust investment in K-12 
STEM education.
    Today there are approximately a couple hundred federal 
programs across 13 agencies related to STEM education. These 
programs receive around $3 billion from Congress annually.
    However, more than half of that money is dedicated to post-
secondary education efforts. That leaves a considerably smaller 
amount of money dedicated to K-12 STEM education.
    Over the course of this hearing you may hear suggestions 
from my friends on the other side of the aisle that we must 
remove dedicated funding streams for STEM education. While our 
first GAO testimony suggested that there was redundancy among 
STEM education programs, a 2012 GAO study inventory concluded 
that STEM programs were not necessarily redundant because they 
serve different constituencies.
    I think we can all agree if there is redundancy we should 
better align programs across all agencies. Today the White 
House has released a budget that responds to the finding of the 
2012 GAO's report by consolidating certain STEM programs while 
maintaining roughly the same top-line investment.
    Scaling back federal investment is not a sound policy when 
we come to education. Eliminating programs would only further 
squeeze limited elementary and secondary resources that must 
make it difficult for states to leverage unique federal 
programs to promote a national STEM agenda.
    The Democratic approach to ESEA should be looked at as a 
model for STEM education. It ensures that students are still 
being assessed in science and it provides dedicated funding to 
STEM education while giving states and districts the 
flexibility to use those funds as they think best.
    Rather than focus the efforts of this subcommittee on 
removing and, in my opinion, undermining STEM programs, we 
should focus on innovative solutions.
    I support increasing coordination among agencies and 
programs and promoting a federal STEM educational plan. I was 
proud to support the America COMPETES Reauthorization Act that 
called for the development of a 5-year STEM educational 
strategy and am looking forward to seeing that final project.
    Recently, researchers reviewed over 400 documents to get a 
sense of what factors improve minority achievement gaps in 
STEM. That research yielded that an increased presence of 
qualified teachers and increased family engagement contributed 
to the success of students in STEM subjects.
    We have found from research and data that having the 
families involved is probably one of the most important things 
for all education levels. I am working with stakeholders 
currently to craft legislation to promote family engagement in 
education.
    Studies show that students lose academic skills, especially 
math, over the course of a long break, like the summer. As 
such, we must look to families to help bridge these gaps in 
formal instruction.
    I would like to close on one final note. As this 
subcommittee discusses the valuable investment and the best use 
of appropriations for STEM education, I would be remiss not to 
mention the importance of investment in early education.
    Just a few weeks back I introduced a Pre-K Act that would 
provide grants to localities nationwide to improve the number 
of high-quality early educational teachers and promote a 
research-based course of study. Early childhood investments 
like these are the building blocks to a successful and well-
prepared workforce. We mustn't lose sight of that theme today.
    Thank you again, Mr. Chairman, for calling this committee 
hearing. I find them all, so far, very educational.
    I yield back.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary and Secondary Education

    Science, Technology, Engineering and Mathematics, or STEM, 
education is a worthwhile investment that the Congress must consider 
furthering.
    In a 21st century economy driven by innovation, STEM education is 
the key to meeting global needs.
    Nationally, there are some positive trends in STEM education.
    Enrollments are up 35% in science and engineering fields over the 
last decade and generally enrollments are up amongst minorities as 
well.
    That said, there are still looming concerns.
    As a nation, we are not faring as well as we should in comparison 
to other countries.
    There are still significant achievement gaps among minorities and 
there are real concerns that this country may not be able to meet STEM 
labor demands going forward.
    Mr. Chairman, this Subcommittee can and must commit to addressing 
these concerns.
    Moreover, I firmly believe that a majority, if not all, of these 
issues can be solved with more robust investment in K through 12 STEM 
education.
    Today, there are approximately a couple hundred federal programs 
across 13 agencies related to STEM education.
    These programs receive around $3 billion from Congress annually.
    However, more than half of that money is dedicated to post-
secondary educational efforts.
    That leaves a considerably smaller amount of money dedicated to K 
through 12 STEM education
    Over the course of this hearing you may hear suggestions from my 
friends on the other side of the aisle that we must remove dedicated 
funding streams for STEM education.
    While at first GAO testimony suggested that there was redundancy 
among STEM education programs, a 2012 GAO inventory concluded that STEM 
programs were not necessarily redundant because they serve different 
constituencies.
    I think we can all agree that if there is redundancy we should 
better align programs across agencies.
    Today, the White House released a budget that responds to the 
findings of the 2012 GAO report by consolidating certain STEM programs 
while maintaining roughly the same top-line investment.
    Scaling back federal investment is not a sound policy.
    Eliminating programs would only further squeeze limited elementary 
and secondary resources thus making it difficult for states to leverage 
unique federal benefits and promote a national STEM agenda.
    The Democratic approach to E-S-E-A should be looked at as a model 
for STEM education.
    Unlike the Republican approach, it ensures that students are still 
being assessed in Science and it provides dedicated funding for STEM 
education, while still giving states and districts flexibility to use 
those funds as they think best.
    Rather than focus the efforts of this Subcommittee on removing and, 
in my opinion, undermining STEM programs, we should focus on innovative 
solutions.
    I support increasing coordination among agencies and programs and 
promoting a federal STEM education plan.
    I was proud to support the America COMPETES Reauthorization Act 
that called for the development of a 5 year STEM educational strategy 
and I look forward to seeing that final product.
    Recently, researchers reviewed over 400 documents to get a sense of 
what factors improve minority achievement gaps in STEM.
    That research yielded that an increased presence of qualified 
teachers and increased family engagement contributed to the success of 
students in STEM subjects.
    I support consideration to help increase the amount of qualified 
STEM teachers in classrooms.
    And I am working with stakeholders currently to craft legislation 
to promote family engagement in education.
    Studies show that students lose academic skills, especially math, 
over the course of long breaks, like summer.
    As such, we must look to families to help bridge these gaps in 
formal instruction.
    I'd like to close on one final note.
    As this Subcommittee discusses the value of investment and the best 
use of appropriations for STEM education, I would be remiss to not 
mention the importance of investment in early education.
    Just a few weeks back I introduced the Pre-K Act that would provide 
grants to localities nationwide to improve the number of high quality 
early childhood educators and promote a research based course of study.
    Early-childhood investments like these are the building blocks to a 
successful and well-prepared workforce; we mustn't lose sight of that 
theme today.
    Thank You.
                                 ______
                                 
    Chairman Rokita. I thank the gentlewoman. And I will knock 
on wood that they will remain that way--these hearings.
    Mrs. McCarthy. They will.
    Chairman Rokita. And by the way, it was your nephew who is 
studying at a university now?
    Mrs. McCarthy. Grandson.
    Chairman Rokita. Grandson. I would like to take him to 
Purdue at some point when he is ready.
    Mrs. McCarthy. That depends on how much money he has.
    Chairman Rokita. We do need the out-of-state tuition.
    Pursuant to committee rule 7(c) all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record. And without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the record, and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses.
    First we have Mr. George Scott. He is the director for 
education, workforce, and income security with the GAO. With 
over 23 years of experience in public service he has testified 
before the House and the Senate on the agency's work around K-
12 education and student financial aid programs.
    Welcome, Mr. Scott.
    Next we have Dr. Ioannis Miaoulis.
    Did I do that okay?
    He is the president and director of the Museum of Science 
in Boston. In addition, he has served in a series of posts at 
Tufts University as well as advisory boards for the Institute 
for Museum and Library Services and NASA.
    Welcome, sir.
    Next we have Dr. Steve Schneider. He is the senior program 
director of the science, technology, engineering, and 
mathematics program at WestEd. He has over 35 years of STEM 
education experience, including as an educator and through 
various research projects.
    Welcome, Doctor.
    And then finally, we have Mr. Bill Kurtz. He is the chief 
executive officer of the Denver School of Science and 
Technology, or DSST, a network of five charter middle and high 
schools that specialize in STEM education. He was the founding 
head of the flagship school in the network. Before joining DSST 
he served as the principal of Link Community Schools in Newark, 
New Jersey.
    Welcome.
    Before I recognize each of you to provide your testimony, 
let me explain the lighting system; 5 minutes to speak in 
total. Mr. Scott is already smiling; he has done this many 
times before.
    Green means go. Yellow, if we set it up here right, means 1 
minute to go. And red means stop. It doesn't mean begin to stop 
or think about the conclusion; it means stop.
    And I say that more for us up here than you over there, but 
it is good for all of us.
    I would now like to recognize Mr. Scott for 5 minutes. Sir?

     STATEMENT OF GEORGE A. SCOTT, DIRECTOR FOR EDUCATION, 
    WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Scott. Mr. Chairman and members of the subcommittee, I 
am pleased to be here today to discuss the findings from our 
report on federally funded science, technology, engineering, 
and math education programs.
    These programs can play an important role in helping to 
prepare students for careers in STEM fields and enhancing the 
nation's global competitiveness. In addition to the federal 
effort, state and local governments, universities, and the 
private sector have also developed programs that provide 
opportunities for students to pursue STEM education.
    Over the years, Congress and the executive branch have 
continued to create new STEM programs even though little is 
known about how well existing programs are working. My 
testimony focuses on the number of federal agencies and 
programs that provided funding for STEM education, the extent 
to which these programs overlapped, and the extent to which 
programs measured their effectiveness.
    As we reported last year, 13 agencies administered 209 STEM 
education programs in fiscal year 2010. The number of programs 
each agency administered ranged from three to 46 with three 
agencies--the Department of Health and Human Services, the 
Department of Energy, and the National Science Foundation--
administering more than half of all programs.
    Agencies obligated over $3 billion to STEM education 
programs. As shown in this figure, the National Science 
Foundation and the Department of Education programs accounted 
for over half of this funding. Almost a third of the programs 
had obligations of $1 million or less, with five programs 
having obligations of more than $100 million each.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Having multiple agencies involved in delivering STEM 
education has both advantages and disadvantages. For example, 
this approach could allow agencies to tailor programs to suit 
their specific missions and to attract new employees to their 
workforce. However, it can make it challenging to develop a 
coherent federal approach to STEM education.
    As shown in the next figure, 83 percent of STEM education 
programs overlapped to some degree with another program. These 
programs range from being narrowly focused on a specific group 
or field of study to offering a range of services to students 
and teachers across STEM fields. This complicated patchwork of 
overlapping programs has largely resulted from federal efforts 
to both create and expand programs across many agencies in an 
effort to improve STEM education and increase the number of 
students going into STEM fields.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It is important to note, however, that even when programs 
overlapped we found that the services they provided and the 
populations they served may differ in meaningful ways and 
would, therefore, not necessarily be duplicative. There may be 
important differences between the specific fields of focus and 
a program's stated purpose.
    In addition, programs may be primarily intended to serve 
different populations within a target group--for example, 
certain underrepresented, minority, or disadvantaged groups, or 
students in specific geographic areas. Furthermore, individuals 
may receive assistance from different STEM programs at various 
points throughout their academic careers that provide services 
that complement rather than duplicate each other.
    In addition to overlap among federal STEM education 
efforts, agencies' limited use of performance measures and 
evaluations may hamper their ability to determine the 
effectiveness of their programs. For example, we found that 
most agencies did not use STEM outcome measures in a way that 
is clearly reflected in their agency performance plans. Also, 
as shown in the next figure, the majority of programs had not 
conducted comprehensive evaluations since 2005 to determine 
their effectiveness.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Last year we made a number of recommendations to help 
improve the coordination and evaluation of federal STEM 
education. The Administration has made some progress in 
addressing these recommendations. For example, in 2012 the 
Administration identified a number of programs that could be 
eliminated.
    Additionally, STEM education was identified as a cross-
agency priority goal in the President's 2013 budget. However, a 
key step in improving coordination across programs--issuance of 
a government-wide STEM education strategic plan--has been 
delayed.
    By further identifying programs for consolidation or 
elimination, the Administration could increase the efficient 
use of limited federal resources. Also, it is imperative that 
the Administration develop a strategic plan that aligns 
agencies' efforts to achieve government-wide goals, enhances 
the ability to determine program effectiveness, and 
concentrates resources on those programs that advance the 
strategy in a cost-effective manner.
    Without these actions, federal agencies may spend funds in 
an inefficient and ineffective manner that ultimately may 
hinder efforts to improve STEM education.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any questions you or other members of the 
subcommittee may have at this time.
    Thank you.
    [The statement of Mr. Scott may be accessed at the 
following Internet address:]

                http://www.gao.gov/assets/660/653661.pdf

                                ------                                

    Chairman Rokita. Thank you, Mr. Scott.
    Dr. Miaoulis, you are recognized for 5 minutes.

  STATEMENT OF DR. IOANNIS MIAOULIS, PRESIDENT AND DIRECTOR, 
                   MUSEUM OF SCIENCE, BOSTON

    Mr. Miaoulis. Good morning and thank you, Mr. Chairman, 
Ranking Member, and members of the committee. It is an honor to 
be invited to discuss K-12 STEM education, which is vital to 
our nation's ability to create a first-class, competitive, and 
innovative workforce.
    I have been asked to discuss our work at the Museum of 
Science, Boston and the success of our National Center for 
Technological Literacy. But first, let's look at the big 
picture.
    There is a widespread concern that our nation's preeminence 
in science and innovation is eroding. Only 5 percent of U.S. 
college graduates major in engineering, compared with 12 
percent of European students and 20 percent of those in Asia. 
And we all know that our elementary and secondary school 
students lag behind many nations on international math and 
science assessments.
    The introduction of engineering education in K-12 has the 
potential to improve student achievement in science and 
mathematics, increase awareness about engineering careers, and 
boost students' technology and engineering literacy, according 
to the National Academies report, ``Engineering in K-12 
Education.''
    While exposure to formal engineering education has 
increased over the past 15 years, reaching several million K-12 
students, most students in the U.S. have never experienced an 
engineering course or lesson. Too many have no idea what an 
engineer even does.
    Engineering isn't the only crucial STEM discipline that is 
missing in our K-12 classrooms. Of the 9.2 million jobs that 
will be waiting for STEM graduates in the year 2020, half of 
them will be in computing and I.T. jobs. But only 2,000 of the 
40,000 high schools in the country offer an A.P. computer 
science course.
    We are now working with the computer science education 
community, including Computing in the Core and MASSCan, to 
increase demand for and interest in K-12 computer science in 
Massachusetts and across the country.
    So why the Museum of Science? One of the museum's primary 
missions is to promote and be a resource for the advancement of 
science, technology, engineering, and mathematics--STEM--
education.
    As a premier venue of public learning experiences, the 
Museum of Science welcomes 1.5 million visitors each year and 
serves as the go-to place for educators, students, and the 
public interested in exploring the relationship between 
science, technology, engineering, and mathematics through 
exhibits, planetarium shows, live presentations, courses, and 
interactive programs for all ages and abilities. But we are 
unique in that we play a major role in formal K-12 engineering 
instruction, as well.
    In 2004 we established the National Center for 
Technological Literacy, NCTL, at the museum in response to the 
new Massachusetts science and technology and engineering 
standards supported by business and industry. We realized there 
were very few instructional materials for teachers to use, so 
we embarked on a mission to create K-12 engineering curricula 
and teacher professional development programs. We aim to 
introduce all children, starting in the very early ages, to 
engineering as an equal to science.
    Most K-12 science curriculum focuses almost entirely on the 
natural world and ignores the human-made world. But more than 
98 percent of our daily life is driven by the engineered world.
    Students need relevant, hands-on, and rigorous experiences 
that allow them to apply their knowledge and skills. This leads 
to better retention and understanding of why these subjects are 
important.
    The engineering design process challenges teachers and 
students to solve problems with limited resources, just like 
real engineers. The NCTL partners with industry, school 
administrators, and formal and informal education across the 
U.S. to introduce engineering design as a problem-solving 
process, to deliver cutting-edge engineering curricular 
resources, and to provide relevant pre-service and in-service 
teacher professional development programs and tools.
    Basically we use a constructivist theory by 
professionally--professional development method is unique 
because we require teachers to learn a grade-appropriate 
engineering design process and then we ask them to actually 
design a technology to solve a community-based problem, which 
also would be expected by the students in the class. This is 
new for most teachers because often there is no one right 
answer.
    We also conduct district leadership institutes to help 
develop integrative STEM action plans for schools.
    We have worked with many states, including Minnesota, 
Purdue University in particular, Arizona, Minnesota, Indiana, 
New Jersey, Texas, Alabama, New York, and many others. And our 
engineering curricula and teacher training have reached over 
48, about 50,000 students and an estimated 50,000 teachers, and 
an estimated 5 million students, including some attending 
Department of Defense schools.
    Sources of funding--we have numerous funders from industry. 
Only 5 percent of our operating budget comes from competitive 
federal grants; 95 percent comes from contributions, 
admissions, membership, and program fees.
    Some of our corporate partners include Raytheon, Google, 
Genzyme, Biogen, Microsoft, Cisco, Intel, and Lockheed Martin. 
Working together, we are engineering a better world for 
generations to come.
    Thank you.
    [The statement of Mr. Miaoulis follows:]

  Prepared Statement of Dr. Ioannis Miaoulis, President and Director, 
 Museum of Science, Boston, MA; Founding Director, National Center for 
                         Technological Literacy

    Good morning and thank you Mr. Chairman, Ranking Member, and 
Members of the Committee. It is an honor to be invited to discuss K-12 
STEM education, which is vital to our nation's ability to create a 
first-class, competitive, and innovative workforce.
    I have been asked to discuss our work at the Museum of Science, 
Boston and the success of our National Center for Technological 
Literacy(r) (NCTL(r)). First, let's look at the big picture.
National STEM Concerns
    There is a widespread concern that our nation's preeminence in 
science and innovation is eroding. Only 5% of U.S. college graduates 
major in engineering, compared with 12% of European students, and 20% 
of those in Asia. And we all know that our elementary and secondary 
school students lag behind many nations on international math and 
science assessments.
    The introduction of engineering education in K-12 has the potential 
to improve student achievement in science and mathematics, increase 
awareness about engineering careers, and boost students' technology and 
engineering literacy, according to the National Academies report, 
``Engineering in K-12 Education.''
    While exposure to formal engineering education has increased over 
the past 15 years, reaching several million K-12 students, most 
students in the U.S. have never experienced an engineering course or 
lesson. Too many have no idea what an engineer even does.
    Engineering isn't the only crucial STEM discipline that is missing 
in our K-12 classrooms. Of the 9.2 million jobs that will be waiting 
for STEM graduates in the year 2020, half of them will be in computing 
and IT jobs. But only 2,000 of the 40,000 high schools in the country 
offer an AP Computer Science course. We are now working with the 
computer science education community, including Computing in the Core 
and MASSCan, to increase demand for and interest in K-12 computer 
science in Massachusetts and across the country.
So Why the Museum of Science?
    One of the Museum's primary missions is to promote and be a 
resource for the advancement of science, technology, engineering and 
mathematics (STEM) education. As a premiere venue of public learning 
experiences, the Museum of Science welcomes 1.5 million visitors each 
year and serves as the go-to place for educators, students, and the 
public interested in exploring the relationship between science, 
technology and engineering and math through exhibits, planetarium 
shows, live presentations, courses, and interactive programs for all 
ages and abilities. But we are unique in that we play an outsized role 
in formal K-12 engineering instruction as well.
The National Center for Technological Literacy
    In 2004, we established the National Center for Technological 
Literacy (NCTL) at the Museum in response to the new Massachusetts 
state science, technology and engineering standards supported by 
business and industries in the state. We realized there were very few 
instructional materials for teachers to use so we embarked on a mission 
to create K-12 engineering curricula and teacher professional 
development (PD) programs. We aim to introduce all children, starting 
in the very early years, to engineering as an equal to science.
    Most K-12 science curriculum focuses almost entirely on the natural 
world and ignores the human-made world. But more than 98% of our daily 
life is driven by the engineering world. Students need relevant, hands-
on and rigorous experiences that allow them to apply their knowledge 
and skills; this leads to better retention and understanding of why 
these subjects are important. The engineering design process challenges 
teachers and students to solve problems with limited resources, just 
like real engineers.
    The NCTL partners with industry, school administrators, and formal 
and informal educators, across the U.S. to introduce engineering design 
as a problem-solving process, to deliver cutting-edge engineering 
curricular resources, and to provide relevant pre-service and in-
service teacher PD programs and tools. Our PD method is unique because 
we require teachers to learn a grade-appropriate engineering design 
process and then we ask them actually design a technology to solve a 
community-based problem that would be expected of their students in 
class. This is new for most teachers because often there is no one 
right answer. We also conduct district leadership institutes to help 
develop integrative STEM action plans for schools.
    For example, we worked with the Minnesota Department of Education 
to embed engineering into their science standards. We have collaborated 
with Purdue University on early engineering education research. We are 
creating out-of-school engineering units for afterschool programs in 
California. We have PD partners in Minnesota, Arizona, Indiana, New 
Jersey, Texas, Alabama, New York, and more. Our engineering curricula 
and teacher training have reached over 48,800 teachers and an estimated 
5 million students, including some attending Department of Defense 
schools. We have also partnered with the European Union.
How do we do it? Sources of Funding
    Approximately 5% of our operating budget comes from competitive 
federal grants. These are important because they leverage corporate and 
philanthropic dollars. For example, our Engineering is Elementary(r) 
curriculum received some federal support but has attracted nearly four 
times as much in corporate and foundation support for teachers, 
dissemination, and development of supplemental materials.
    The remaining 95% of our operating budget comes from contributions, 
admissions, membership, and program fees. Corporate partners include, 
for instance, Raytheon, which provides scholarships to educators to 
participate in our engineering workshops and funded the establishment 
of 3 additional training sites. Google invested $1 million for the 
development of our Pixar animation and computer science exhibit. 
Liberty Mutual has funded the development of math lessons for 
Engineering is Elementary. Genzyme established an endowment for 
biotechnology education and has long supported our teacher sabbatical 
program. Biogen Idec recently established an endowment to support 
middle and high school hands-on STEM education. And Microsoft & Cisco 
have provided critical hardware & software to the Museum.
    Working together, we are engineering a better world for generations 
to come.
                                 ______
                                 
    Chairman Rokita. Thank you, Doctor.
    Dr. Schneider, you are recognized for 5 minutes.

  STATEMENT OF DR. STEVE SCHNEIDER, SENIOR PROGRAM DIRECTOR, 
                     WESTED, SAN FRANCISCO

    Mr. Schneider. Members of the subcommittee, I really 
appreciate--oh, excuse me----
    Chairman Rokita. I am sorry. Hit your mic there.
    Mr. Schneider. Members of the subcommittee, I really 
appreciate the opportunity to address you today. My perspective 
on STEM education is based on my 40 years in this discipline. 
The first 10 years I was a--over 10 years, a science teacher 
and math teacher in low-performing urban districts in 
California, followed by working at two universities in teacher 
education, and then over 20 years ago I started the STEM 
program at WestEd, focusing my work around R&D.
    WestEd is a national, not-for-profit research and 
development agency that is over 40 years old. Through rigorous 
research, service, and partnerships, our staff addresses many 
issues in human development, from birth to senior care, and 
education from pre-service to the world of work.
    WestEd is also a member of the Knowledge Alliance, a 
consortia of leading national education R&D agencies that work 
to assure that education practices are informed by research.
    Within my STEM education program at WestEd, I have 75 staff 
working on dozens of projects that are wide-ranging in research 
and development, innovation, and professional development.
    Let me begin by saying I am sure everyone here believes 
STEM education is critical to our nation's future. In short, 
STEM education is a keystone to three things: being college 
ready, career ready, and being ready to succeed in everyday 
life.
    We need more rigorous STEM education that empowers more 
students to be college and career ready. In each of these, STEM 
education is important that we reach all students, including 
diverse students. Equity is always a matter of fairness in our 
democracy.
    As a convenience, today I am using the acronym, STEM--
science, technology, engineering, and mathematics. However, 
there are some big disadvantages and advantages to this. The 
great news is that STEM includes all the disciplines.
    Now, increasingly we are beginning to address the needs of 
technology in education, as was pointed out by the previous 
speaker. But as we look across the STEM disciplines in our 
schools, mathematic has received a lot of attention, including 
ongoing assessments. On the other hand, late research has shown 
that science is actually receiving less--not more--attention in 
the last decade.
    An exciting development is a recent start of more 
technology in education, as mentioned by the Boston Museum. And 
federal leadership, I feel, is really needed to pry S-T-E-and-M 
education out of their silos and further to foster the balance 
of the STEM system that connects teaching and learning to STEM 
across all instruction.
    I organize my--ideas for federal leadership in three areas. 
The first one is rigorous research and development. The field 
needs more of basic research, and by ``basic research'' I mean 
research using cognitive science and things like that to learn 
how people think and learn.
    By ``applied research'' I mean studies of effectiveness of 
educational intervention. In recent years, there has been an 
expansion in this and I would like to provide a few examples.
    On the federally-funded Corporation for Public Broadcasting 
Ready to Learn Grant we conducted a home study in Richmond, 
California at a Head Start program. We found after 8 weeks of 
an intervention with preschool students that the students that 
got the intervention showed significant differences in 
mathematics learning over the control group.
    In another federally-funded IES National Center for 
Cognition and Math Instruction, where I am the principal 
investigator, we are integrating cognitive science principles 
from the IES practice guides into existing math curriculum to 
improve student learning.
    On an NSF study we conducted a study of the impact of 
literacy in biology classrooms in urban settings. We found that 
Latino and African-American students that had teachers that had 
this intervention did significantly better than the control 
group on the state test in biology and in literacy.
    What is important to note is none of these studies would 
have happened without federal support. However, as the 
principal investigator of the What Works Clearinghouse in 
science, there really isn't a lot of this research that has 
been done until recent years.
    Two challenges remain. One is, sequestration is already 
hitting IES and NSF for fiscal year 2013 funding and the Ready 
to Learn program is also going to experience these reductions 
and may also not be reauthorized. The second concern is that 
basic research may not be supported.
    The second note is around the preparation of the 
development of STEM teachers. Obviously we need more teachers 
that are better-prepared, and also induction programs that 
match what happens in other countries.
    On professional development, it has almost disappeared from 
our schools. The number of professional development programs 
and funding, especially in the time of Common Core and Next 
Generation Science Standards, really needs to be looked at.
    In concluding, I would like to note that in my written 
testimony I do list a number of policy implications that I 
think may be considered.
    Thank you for your time.
    [The statement of Mr. Schneider follows:]

             Prepared Statement of Steve Schneider, Ph.D.,
                 Senior Director, STEM Program, WestEd

Importance of STEM Education
    Members of the subcommittee, thank you for the opportunity to 
address you today. I'm sure that everyone here believes that STEM 
education is critical for our nation's future for many reasons, for 
example:
    To ensure our nation's youth are college and career ready. It is 
critical for ensuring that more of our young people will be equipped to 
pursue high paying STEM jobs, ones that currently are going unfilled 
far too often.\1\ I do not refer only to needing enough advanced degree 
holders; many of our unfilled STEM slots in the job market require more 
students to pursue and succeed at STEM programs at the community 
college and four-year levels. This is key to our economic 
competitiveness in the world. For a few decades now, international 
comparisons have been helping us monitor whether U.S. STEM education is 
resulting in strong student achievement in mathematics and science that 
is needed for college and career readiness.\2\ Most analysts conclude 
that there is a strong opportunity and need for more robust STEM 
achievement.
    To develop STEM literacy for everyday life. The STEM fields are 
steadily bringing many big and small changes in everyday life. We need 
a constantly refreshed, strong STEM education that leads to every high 
school graduate being STEM literate, in ways consistent with 21st 
Century Skills. STEM literacy is becoming more and more indispensible 
for a person to thrive in today's world. It's also indispensible for 
our nation to have STEM literate citizens guiding how STEM developments 
should and should not unfold.
    To ensure that all students have access to the best STEM 
preparation. Because our nation has diverse peoples, STEM education 
must be equally effective for students of all races and ethnicities, 
for both girls and boys, in both urban and rural areas. Currently, 
there are many achievement and opportunity gaps in success among our 
diverse students. A good portion of federal funding for STEM should 
continue to leverage attention to promoting equity and success for 
diverse students. Of course, equity always will be a matter of fairness 
in our democracy. However, my state of California has already become 
minority-majority and this shift in demographics will occur across the 
nation in short order. Therefore, effectively teaching all students is 
not only about fairness; it also is a national economic necessity to 
have enough students from every background choosing to enter STEM 
college and career paths and succeeding at them.
    In short, a STEM education that is relevant and rigorous is a 
keystone for anyone and everyone to be college ready, career ready, or 
ready for succeeding in their everyday lives.
    In my testimony, I make the case that strong, continuous but 
evolving leadership from the federal government is indispensible. And 
the needed federal efforts to catalyze, leverage and support changes in 
STEM education must adapt to changes in the challenges that we will 
face in STEM education, and do so in ways that are strategic, aligned 
and efficient.
Internationally Competitive STEM (not SteM)
    It is important to take a moment to clarify what we mean by 
``STEM.'' As a convenience, I am using today's common acronym ``STEM'' 
to refer to science, technology, engineering and mathematics. However, 
there are some big advantages and big problems with the pervasive use 
of this phrase today.
    The great news is that ``STEM'' includes all of these subjects. In 
the past, the education field focused primarily on science and 
mathematics. Now, increasingly we also are beginning to address the 
need for technology and engineering education in grades K-12.
    A problem with the wide talk about ``STEM'' is that it may be 
desensitizing us to the fact that not enough is happening yet across 
all of these subjects:
    <bullet> Mathematics is receiving appropriate, strong attention 
because it is one of the most accountable school subjects in our 
states' standards and assessments, and it can be either a gateway or a 
barrier to learning other STEM subjects.
    <bullet> On the other hand, science is actually receiving less--not 
more--attention than it did a decade ago.\3\ For years now, I've 
regularly heard colleagues in science education say something like 
'science education has become a second-class citizen in the U.S. STEM 
agenda when compared to mathematics.' That this is the case is alarming 
on its own, but especially so because it is not similarly happening 
among our peer nations. I urge policy makers to strengthen attention to 
science without diminishing attention to mathematics. There isn't much 
point in getting students through the gateway of mathematics, without 
also providing high-level expectations for achievement in science and 
opportunities for attaining them.
    <bullet> An exciting development is a recent start on more clearly 
adding technology and engineering to our U. S. education agenda, 
spurred by the leadership of federal policy efforts and calls from the 
private sector. Some peer nations already have had a strong spotlight 
on T&E, but these subjects are now getting on our school map. For 
example, the first update of national science standards in over a 
decade, scheduled to be released this week, will include strong calls 
for explicit inclusion of specific technology and engineering content 
within the nation's science instruction, in an integrated way.\4\
    There is not enough qualified technology and engineering teachers, 
and it's difficult to make room in the school day for whole new T&E 
courses that all students would take. Consequently, policy makers are 
leveraging the nation's science teachers en masse in the next few years 
to add these subjects to their curriculum in an integrated 
fashion.\5,6\ Teachers and districts in most states have no preparation 
or experience for this. Therefore, federal investment is needed to 
support curriculum development, changes in teacher preparation, 
curriculum integration, professional development, and assessments.
    Finally, an advantage of the term ``STEM'' is that it inherently 
suggests making connections in teaching among these subjects. That's 
important because these subjects are in fact connected in the work that 
goes on in STEM businesses and STEM research. Unfortunately, our 
typical K-12 STEM course structures and sequences and our staffing of 
them can be a barrier to teaching STEM in an integrated way, especially 
at the high school level. Federal leadership is needed to pry S, T, E 
and M education out of their silos, and further, to connect the 
teaching and learning of STEM to instruction in other school subjects.
The Importance of Continued Federal Leadership
    Continued federal leadership for addressing barriers in STEM 
education is essential.\7\ STEM education has been a continuing federal 
priority since the Soviet-era launch of the first satellite, Sputnik. 
If for no other reason than the constantly accelerating changes in 
science, technology, engineering and mathematics around us, federal 
efforts will likely always be needed to spur parallel innovations to 
keep STEM education contemporary. At this moment, specific needed 
federal efforts include:
    (1) Continue to fund rigorous research and development in STEM that 
can:
    <bullet> develop fundamental new understandings of how students 
learn STEM;
    <bullet> create and promote rapid dissemination of leading edge 
STEM teaching and learning innovations, including technology 
innovations, that mirror developments in the fast-moving fields of 
STEM; and
    <bullet> assess the effectiveness of educational products and 
teaching practices in STEM for the learning of diverse students.
    (2) Foster efforts that create a larger, better STEM teacher 
workforce through:
    <bullet> producing more STEM teachers, and promoting a diverse 
teacher corps reflecting that of the student population;
    <bullet> providing induction for beginning STEM teachers in a way 
that launches their career-long learning about how to advance student 
learning in STEM, and
    <bullet> providing continuous, contemporary professional 
development of all STEM teachers so that they can provide our nation's 
youth with the most current understanding of STEM and develop the mind 
sets needed for innovation.
    (3) Continue and expand highlighting STEM as a priority in all 
education funding programs, not just STEM funding programs, whenever 
appropriate.
    The above efforts are especially important now because the recent 
sequestration already is beginning to erode rather than strengthen 
these efforts, which I will illustrate.\8\
Rigorous Development, and Research on Evidence of Learning by All
    The field needs more, not less, federal support of both basic and 
applied research in STEM education. By basic research, I mean such 
things as more cognitive science research on how people think and 
learn. By applied research, I mean studies of the effectiveness of 
educational innovations, including whether they are effective for 
diverse learners. The Institute of Education Sciences at ED and the 
National Science Foundation are by far the largest sponsors of such 
research in STEM. In recent years, there has been a much-needed 
expansion of applied research and evaluation on the effectiveness of 
education innovations, including specifically in STEM subjects, and 
this should continue and be expanded.\9\
    As the principal reviewer for science education in the What Works 
Clearinghouse, I have seen this resulting in the maturing of more 
innovations that have rigorous evidence to support their claims. But we 
have a long way to go before there will be enough evidence to transform 
educational practice so that all teachers are using evidence-based 
approaches.
    The federal call for evidence of effectiveness can be credited with 
raising the expectation that all educators use evidence-based programs 
and practices throughout our education system. Projects that in the 
past amassed, reviewed and critiqued educational products were mostly 
descriptive efforts. At WestEd, in our work today for the corporate-
sponsored Change the Equation review of STEM education products, 
developers had to provide strong evidence that their educational 
approaches produced results. Even some leading products were not 
included if they hadn't yet be able to generate such evidence. However, 
individual product developers and many of the nation's leading 
curriculum developers other than major corporations cannot afford the 
costs of the rigorous research needed to generate such evidence.
    There are two challenges that concern me. First, sequestration is 
immediately reducing the amount of new research that will be funded. 
For example, both IES and NSF must reduce the number of new research 
studies they can launch in the next few months with FY13 funding, from 
among the backlog of proposals submitted last summer and fall. It is 
unfortunate that the across-the-board nature of the sequestration 
funding action ties the hands of policy makers to retain a priority on 
funding research and development in education, and STEM education in 
particular.
    Second, while the rise of applied research and evaluation in STEM 
education has addressed some weakness in past research agendas, funding 
support for basic STEM education research may not be keeping pace with 
the investment needed to ensure the best possible STEM education in the 
future. If the demands for evidence are universally applied too early 
in the development process, this may stifle some kinds of high-risk, 
high-yield research needed in the early stages of thinking and 
development.
Preparation and Continuous Development of Enough STEM Teachers
    We will need more STEM teachers, as evidenced by many organizations 
rallying to the PCAST report's call for 100K new STEM teachers in ten 
years.\10\ The federal government should continue programs that recruit 
diverse students into STEM teaching and create innovation in STEM 
teacher preparation. New ideas will have to be explored for including 
some introduction to engineering fields and principles in the 
preparation of science teachers; currently only 14% of high school 
science teachers, 7% of middle school science teachers and 1% of 
elementary teachers had any college coursework in engineering (Horizon, 
2013, footnote 3, see p. 12).
    Some of our peer nations provide more robust teacher induction 
programs than the
    U.S. provides. For example, while U.S. induction programs typically 
last only one year, peer nations provide induction programs for 
beginning teachers for two years. Further, they more specifically 
recognize that beginning STEM teachers have subject-specific needs and 
address these, in addition to the common needs faced by all beginning 
teachers.\11\
    It is ironic and disturbing that at the same time the demands on 
STEM teachers to learn new things are escalating from initiatives such 
as Common Core and the upcoming Next Generation Science Standards, 
funds seem scare for the professional development that they need for 
effective implementation. And ongoing professional development always 
is needed in STEM, more so than in some other school subjects, to stay 
abreast of changes in STEM content knowledge spurred by the constant 
rapid changes in the STEM disciplines. For example, within the last 
three years: 59% of elementary teachers have had no professional 
development in science; only 47% of middle school mathematics teachers 
have had more than two days worth of professional development (Horizon, 
2013, footnote 3, see pp. 33-4).
Highlighting STEM in funding programs
    I want to acknowledge that there is significant room for 
improvement in aligning and focusing existing federal support for STEM 
education by different federal Departments and Agencies.\12\ I have had 
experience over my career with many federal funding programs for STEM 
education, such as those supported by NSF, NASA, the U.S. Department of 
Education, which may overlap in name or general focus. I find that most 
of them, rather than being redundant, have differences in their 
specifics that are quite important distinctions in bringing about 
different needed elements of change in STEM education. However, what is 
needed is more strategic communication and alignment among federal 
programs to make these complementarities more explicit, and, also to 
reduce any true rather than perceived redundancy.
    My comments thus far have been about urging continued or increased 
support of federal programs that specifically fund STEM education 
initiatives. There is an additional policy avenue for catalyzing 
stronger STEM education.
    Include stronger attention to STEM within broader funding programs. 
For example, the recent re-competition of the ED department's Equity 
Assistance Centers requested that bidders include strategies that 
address the specifics of equity issues for STEM education. At WestEd, 
that new emphasis has resulted in exciting collaborations between my 
STEM Program and our Equity Assistance Center for Region IX. Expanding 
this thinking, it would be exciting to see similarly stronger, more 
explicit calls for STEM emphases (not just for mathematics) in such 
programs as the Regional Education Laboratories and the Comprehensive 
Centers.
    Recall that more than a decade ago, the federal government 
sponsored regional centers focused on STEM education, the Eisenhower 
Regional Consortia. I co-directed the consortium housed at WestEd. This 
program ensured that for every state across the country there was a 
place that could promote and broker collaboration on STEM issues among 
districts and regions within a state, and across departments of 
education in different states in the region. Today, there only is a 
thin patchwork of coordinating groups within some states, and they 
generally have less means to facilitate technical assistance for states 
and school districts to raise achievement in STEM education. Within 
many states, there is no such broker at all. And few entities span 
across states within their broader region.
    In these tight fiscal times, I recognize that it most likely would 
be problematic to reinstate such dedicated STEM coordination entities 
at past funding levels. However, even funding some modest effort that 
would bring systematic assistance to states and school districts in the 
STEM area would be helpful. Additionally, there is an opportunity and a 
need for RELS, CCs and other federally funded Centers and technical 
assistance projects to do more to increase our nation's performance in 
STEM education. Perhaps national technical assistance centers on STEM 
education could be developed to support both the REL and CC contractor 
networks.
The Challenges of States, Districts and Private Education Companies 
        Acquiring the Federal Role
    States and districts do not have the capacity or wherewithal to 
fund or carry out much of what the federal government currently is 
leading and supporting. Particularly in these difficult fiscal times, 
they are overwhelmed with their core mandate of executing the provision 
of quality day-to-day instruction for their students.
    Chances are that, as things stand now, any reallocated federal 
funds from the current high leverage, federal programs for STEM 
education improvement to states and districts would be used to address 
recent shortfalls in local funds for what they already have to do. 
Given this context, it is critical for the federal government to 
consider how it might promote capacity building at the district and 
state levels. [See footnote 5, Bybee.] In the long term, this would 
result in the ability to shift more of the needed research and 
evaluation and development activities to states or districts and 
perhaps decrease federal cost. In the immediate, however, it would 
require a funding increase to maintain momentum of federal efforts 
while also supporting states and districts to develop needed capacity 
in STEM leadership.
    Many private companies that create educational products and 
services might have the funds to conduct such research, but they have 
little intrinsic incentive to pursue this agenda. I have asked friends 
who are leaders in private education firms, 'would you like me to study 
the effectiveness of your products and services?' Their response is: 
'No thanks; the marketplace determines their effectiveness.'
    Of course, products are commercially successful only if teachers 
are able to engage with and able to use a product. However, this 
important feature does not mean that firms are acquiring any evidence 
that students are successfully learning from the products, and, in 
particular, if our populations of students from very diverse 
backgrounds are being successful.
    Also, the private sector generally is not going to aggressively 
create innovations that require users to move substantially past their 
comfort zone, because they aren't likely to have a sufficient market 
for success. It takes federal prompting to spur innovations that will 
lead rather than follow. In fact, funding programs for Small Business 
Innovation Research are prompting development of leading-edge 
innovations by the private sector; such efforts should continue. 
However, many of these grantees do not have staff with the expertise or 
experience with STEM education. In recent years I've had SBIR grantees 
reach out to us at WestEd, and vice versa, to collaborate on how to 
better incorporate evaluation of educational effectiveness of their 
innovations into development plans. The SBIR programs could be 
strengthened to require such collaboration.
Summary of Federal Strategies for Addressing Barriers in STEM Education
    Based on the testimony above, what follows is a summary of federal 
strategies for addressing barriers in STEM education--
            Balanced, integrated attention among STEM subjects
    1. Policy makers should continue their efforts to enhance 
mathematics education.
    2. However, policies should foster more attention to science 
education, to redress its inadvertently diminished status in our 
educational system.
    3. Federal leadership particularly is needed to catalyze 
introduction of technology and engineering education.
    4. Leverage experiments in instructional models and courses that 
integrate STEM fields.
    Sponsor more STEM education research and development, both basic 
and applied.
    5. Increase funding for research on and development of promising 
practices in STEM education.
    6. Ensure that applied research levels continue or grow and that 
basic research is strengthened.
    7. Call for SBIR grantees to build in stronger collaboration with 
experts in STEM education and STEM education research.
            Prepare, induct and continuously educate more STEM teachers
    8. Continue to catalyze production of more STEM teachers.
    9. Foster experiments in science teacher preparation that include 
initial introduction to technology and engineering education.
    10. Promote more robust teacher induction programs, including 
stronger attention to the subject-specific needs of beginning STEM 
teachers.
    11. Increase professional development for implementation of major 
STEM initiatives and to stay current with developments in STEM 
disciplines.
            Require and support a stronger STEM focus in broader 
                    education programs
    12. Create regional STEM education centers that can coordinate and 
lead STEM education efforts in each region of the country, similar to 
the Eisenhower Regional Consortia of the past.
    13. Require stronger foci on STEM education (not just mathematics) 
in such programs as RELs and CCs.
    14. Create national STEM education centers that can provide 
technical assistance to contractor networks for such programs as RELs 
and CCs.
    I want to thank the committee for providing me this opportunity to 
share my expertise. I hope the committee will find the testimony 
helpful in deliberating how to strengthen STEM education.
                                endnotes
    \1\ Symonds, W., Schwartz, R. & Ferguson, R. (2011). Pathways to 
Prosperity: Meeting the Challenge of Preparing Young Americans for the 
21st Century, Report issued by the Pathways to Prosperity Project, 
Boston, Mass: Harvard University, Harvard Graduate School of Education.
    \2\ Britton, E. & Schneider, S. (forthcoming). Large-scale 
Assessments in Science Education. In N. Lederman and S. Abell (Eds), 
Handbook of Research on Science Education, second edition. Taylor and 
Francis.
    \3\ Banilower, E., Smith, S., Weiss, I., Malzahn, K., Campbell, K. 
& Weiss, A. (2013). Report of the 2012 National Survey of Science and 
Mathematics Education. Chapel Hill, NC: Horizon Research.
    \4\ Board on Science Education, National Research Council. (2012). 
Framework for K-12 Science Education: Practices, Crosscutting Concepts, 
and Core Ideas. Washington DC: National Academy Press.
    \5\ For example, in 2014, the National Assessment of Educational 
Progress (NAEP) will pilot an eighth-grade technology and engineering 
assessment. National Assessment Governing Board. (2011). Technology and 
engineering literacy framework for the 2014 National Assessment of 
Educational Progress. Washington, D.C.: author. The WestEd STEM Program 
facilitated development of this NAEP framework.
    \6\ Sparks, S. (March 27, 2013). New NAEP Demands Application of 
Knowledge: New NAEP to Gauge Engineering, Technology Literacy. 
Education Week. 32(26), p. 18.
    \7\ Bybee, R. (forthcoming). The Case for STEM Education: 
Challenges and Opportunities. Arlington, VA: National Science Teachers 
Association. Note chapter 6: What is the Federal Government's Role?
    \8\ At the STEM Program at WestEd that I lead, 75 staff work on 
almost all of the above efforts, providing me with the grounded 
insights that I offer today; however, I acknowledge that our work often 
is supported through federal funds along with funds from private sector 
Foundations and corporations (e.g., Wiliam and Flora Hewlett 
Foundation, Google) and non-profits (e.g., Change the Equation, which 
represents first tier STEM companies).
    \9\ Findings from the National Center for Education Research (NCER) 
2002-2011, particularly pp. 13-14. http://ies.ed.gov/ncer/pdf/
Findings2011.pdf
    \10\ President's Council of Advisors on Science and Technology 
(PCAST). 2010. Prepare and inspire: Science, technology, engineering, 
and mathematics (STEM) education for America's future. Office of 
Science and Technology Policy, Executive Office of the President, 
Washington, DC.
    \11\ Britton, E., Paine, L., Pimm, D. & Raizen, S. (2003) 
Comprehensive Teacher Induction: Systems for Early Career Learning. San 
Francisco, CA and Dordrecht, Netherlands: WestEd and Kluwer Academic 
Press (now Springer).
    \12\ Government Accounting Office. (2012). Opportunities to Reduce 
Duplication, Overlap and Fragmentation, Achieve Savings, and Enhance 
Revenue. Washington, D.C.: author, GAO-12-342SP.
                                 ______
                                 
    Chairman Rokita. Thank you, Doctor.
    Mr. Kurtz, you are recognized for 5 minutes.

STATEMENT OF BILL KURTZ, CHIEF EXECUTIVE OFFICER, DENVER SCHOOL 
                   OF SCIENCE AND TECHNOLOGY

    Mr. Kurtz. Good morning, Chairman Rokita, and Ranking 
Member McCarthy, and members of the subcommittee. My name is 
Bill Kurtz and I am the CEO of DSST Public Schools, a network 
of six charter schools in Denver, Colorado.
    DSST Public Schools was founded in 2004 and we currently 
serve more than 2,000 students in six open-enrolment STEM 
charter schools. We operate four middle schools and two high 
schools and are scheduled to open a fifth middle school in June 
2013. By 2020 DSST Public Schools will have 10 schools on five 
campuses that will serve over 4,500 students, representing 12 
percent of the Denver public schools 6-12 student population.
    Our students enroll through a non-selective, random 
lottery. As a result, our student body is very diverse. Nearly 
60 percent of our students are from low-income families and 75 
percent are minorities. Our schools truly represent a cross-
section of Denver.
    DSST Public Schools operates some of the most successful 
public schools in Colorado. Last year DSST Public Schools 
operated the highest-performing middle school and the highest-
performing high school in Denver.
    Our schools showed some of the highest growth numbers of 
all public schools in Colorado on the state TCAP tests, 
according to the Colorado Growth Model. Our second high school, 
serving students in the largest school turnaround zone in the 
state of Colorado, achieved the second-highest standardized 
test growth scores of all of 2,000 public schools in Colorado.
    Our experience at DSST proves without a doubt that all 
students, regardless of race or income, can earn a rigorous 
STEM high school diploma and attend 4-year college and 
universities. Every single senior in the history of DSST public 
schools has earned an acceptance to 4-year college, an 
unprecedented track record in the state of Colorado.
    Ninety-five percent of our graduates enroll in post-
secondary education within the first 2 years of graduating, and 
45 percent of our students are choosing STEM fields of study in 
college, compared to the national average of 14 percent.
    I am here today to discuss what DSST is doing to ensure 
that our students are prepared for post-secondary careers in 
STEM. Preparing our nation's students for our highest-need, 
hardest-to-fill jobs is one of the most important tasks of our 
public education system.
    Today we are not providing our students from low-income 
families with access to the highest-quality STEM education and 
the preparation needed to enter critical fields like 
engineering, computer science, and bioscience.
    DSST Public Schools represents an important and growing 
movement to open up high-quality STEM education to all 
students, regardless of the ethnic, economic, or academic 
background. Simply put, we take a different approach in how we 
educate our students.
    First, our schools are uniquely built on the premise that 
all students deserve access to a high-quality STEM education. A 
majority of our students enter below grade level and they have 
been conditioned to believe that science and advanced math is 
an extra or only for smart kids. In our schools these subjects 
are not extras but a core subject that is required for all 
students.
    Second, we insist that our schools provide a rigorous STEM 
preparatory curriculum that prepares all of them for STEM 
fields of study in 4-year college. For example, regardless of 
their starting point, all students are expected to pass 3 years 
of integrated science in middle school and more than 6 years in 
high schools, and many students take more.
    Students take algebra-based high school physics in the 
ninth grade. All ninth-grader students also take a creative 
engineering course so they learn the design process.
    Students complete their high school requirements by taking 
a college-level physics class coupled with an engineering 
course or a college-level biochemistry class coupled with a 
biotechnology class.
    Math is also a critical component of rigorous STEM 
education. All DSST students are required to pass at least pre-
calculus to graduate.
    We provide several important opportunities for our students 
to apply their learning to the real world. Each junior is 
required to complete a 2-day-a-week internship in a workplace--
oftentimes a STEM workplace. Our seniors must complete a 
capstone senior project in order to graduate.
    Of course, DSST and our students would not be successful 
without the dedication and expertise of our outstanding 
teachers. We recruit our teachers from across the nation; we 
seek teachers who have a deep passion for their subject, who 
share our belief that all students can succeed in a rigorous 
college preparatory program, can use data to guide their 
instructions, and are strong learners willing to push 
themselves.
    In closing, I would like to leave the committee with two 
key thoughts on how to best replicate the success of schools 
like DSST. First, support the Federal Charter Schools program. 
As a charter school, we have the freedom to design our 
curriculum, an autonomy in the hiring of our teachers and 
monitoring their performance, and we are able to demand a high 
level of rigor from our students and teachers. The Federal 
Charter Schools program has been a lifeline to thousands of 
charter schools, including DSST.
    Second, the best way to get students interested in the 
field of STEM is to ensure they have the access to core content 
in this area delivered by an effective teacher in effective 
schools.
    Thank you for your time today. I am pleased to speak on 
this important issue and I am happy to answer any questions.
    [The statement of Mr. Kurtz follows:]

       Prepared Statement of Bill Kurtz, Chief Executive Officer,
                    DSST Public Schools, Denver, CO

    Good morning Chairman Rokita and Ranking Member McCarthy and 
members of the Subcommittee. My name is Bill Kurtz and I am the CEO of 
DSST Public Schools, a network of six charter schools in Denver, 
Colorado. DSST stands for the Denver School of Science and Technology, 
which was the name of the first charter high school we opened. I am 
pleased to be here today on behalf of DSST Public Schools to discuss K-
12 STEM education.
    DSST Public Schools was founded in 2004--and I served as the 
founding Principal of our first school DSST: Stapleton High School. I 
have 18 years of experience leading schools after spending the first 
four years of my career working on Wall Street. STEM is an important 
priority for me. I currently serve on the National Research Council and 
National Academy of Engineering iSTEM committee which will complete a 
report on integrated STEM this summer.
    DSST Public Schools serves more than 2,000 students at six open-
enrollment STEM charter schools on four campuses; our schools are 
focused on preparing every student to succeed in four-year college with 
the opportunity to pursue a STEM field of study in college. We operate 
four middle schools and two high schools and are scheduled to open a 
fifth middle school in June 2013; by 2020 DSST Public Schools will have 
10 schools on five campuses that will serve over 4,500 students, 
helping Denver Public Schools double the number of four-year college-
ready graduates exiting Denver Public Schools.
    All of our students enroll through a non-selective, random lottery. 
DSST schools are not magnet schools or in any way selective. As a 
result, our student body is very diverse--nearly 60% of our students 
are from low-income families and 75% are minorities. Our schools truly 
represent a cross-section of Denver, the city we serve.
    DSST Public Schools operates some of the most successful public 
schools in Colorado. Last year, DSST Public Schools operated the 
highest-performing middle school and high school in Denver. We are most 
proud of measures that show growth--meaning, how much did a student 
learn from the first day of school to the last day of school. Within 
the state of Colorado, our schools showed some of the highest growth 
numbers of all public schools, according to the Colorado Growth Model, 
on State CSAP tests. Our second high school, serving students in the 
largest school turnaround zone in the state of Colorado, achieved the 
2nd highest standardized test growth scores of all of Colorado's 2,000 
public schools.
    Most importantly, DSST proves, without a doubt, that all students, 
regardless of race or income, can earn a rigorous STEM high school 
diploma and attend four-year colleges and universities. Preparing every 
student to succeed in a four-year college with the opportunity to study 
STEM is at the center of DSST's academic program. Every single senior 
in the history of DSST Public Schools has earned an acceptance to four-
year college--an unprecedented track record of success in Colorado. 95% 
of our graduates enroll in post-secondary education with in the first 
two years of graduating DSST. DSST graduates had the fifth-lowest 
college remediation rate of all public and private high schools in 
Colorado last year while being a considerably more diverse population 
than the graduates from other high schools with the lowest remediation 
rates. Ninety-two percent of those students persist from Freshmen to 
Sophomore year and 45% of our students are choosing STEM fields of 
study in college, compared to a national average of 14%.
    I am here today to discuss what DSST is doing to ensure that our 
students are prepared for post-secondary study and careers in STEM. 
Preparing our nation's students for our highest-need, hardest-to-fill 
jobs is one of the most important tasks of our public education system. 
Today, we are not providing our students from low-income families with 
access to the highest-quality STEM education and the preparation needed 
to enter critical fields like engineering, computer science and 
bioscience. We have long reserved STEM education for the gifted and 
talented, denying our students and our nation's employers with the 
opportunity to fill a critical national need. DSST Public Schools 
represents an important and growing movement to open up high-quality 
STEM education to all students regardless of their ethnic, economic or 
academic background. Here are a few key building blocks of our program:
    First, our schools are uniquely built on the premise that all 
students deserve access to a high-quality STEM education. A majority of 
DSST students enter well below grade level in the 6th and 9th grades 
and could never be accepted into a magnet science program on the basis 
of a test. Many students are conditioned to believe that science and 
advanced math ``is an extra'' and only for ``smart kids.'' In our 
schools, these subjects are not extras, but a core subject for all 
students. All students are required to take a STEM college preparatory 
curriculum--there is no remedial track in our school.
    Our second key belief is that schools must provide a rigorous STEM 
preparatory curriculum. We believe that the most important factor in a 
student choosing and ultimately completing a STEM degree is his or her 
preparedness to succeed at the college and graduate level. Thus we 
design our curriculum to provide students with the best possible 
preparation to succeed in STEM fields in four year colleges.
    For example, regardless of their starting point at DSST, all 
students are expected to pass 3 years of integrated science in middle 
school and more than 6 years in high school--and many students take 
more. Students take algebra-based high school physics in the 9th grade. 
This provides students with a lab-based class to practice, apply and 
synthesize the math skills they are learning elsewhere. All 9th grade 
students also take ``Creative Engineering'' where they learn the design 
process, how to conduct basic research, and how to maximize and 
minimize constraints so they can develop a better understanding of 
engineering and the sciences as careers that improve the human 
condition. Students complete their high school requirements by taking a 
college-level physics class coupled with an engineering course or a 
college-level biochemistry class coupled with a bio-technology class. 
Math is also a critical component of a rigorous STEM curriculum. All 
DSST students are required to pass at least pre-calculus to graduate.
    We provide several important opportunities for our students to 
apply their learning to the real world. Each junior is required to 
complete a two-day a week internship at a workplace--oftentimes a STEM 
work place. Our seniors must complete a capstone Senior Project in 
order to graduate, and I am quite proud of their work. Just to 
highlight a few examples, our seniors have:
    <bullet> Designed and built a Magnetic Linear Accelerator as a 
potential way to launch space vehicles;
    <bullet> Modeled population growth with slime mold;
    <bullet> Created a science-fiction film about potential life on 
Europa, a moon orbiting Jupiter; and
    <bullet> Developed a low-cost solar-powered lamp for developing 
countries so they can keep lights on for studying, thus keeping more 
kids in school (this project is still in development).
    Lastly, we believe the success of any school must be rooted in a 
strong school culture that focuses on building character and creating 
an environment that expects all students to be college ready. Students 
are challenged, but supported in our schools. A peer-driven culture is 
reflected in each of our schools where going to college is ``cool'' and 
expected.
    Of course, DSST and our students would not be successful without 
the dedication and expertise of our outstanding teachers. Teachers at 
DSST are driven by their unwavering belief in our students, driven by 
data, and continually reflect on student performance. They receive 
extensive support, including observations and feedback, peer-driven 
professional development, and targeted development in new instructional 
techniques to ensure they are incorporating the best instructional 
strategies in their classrooms.
    We recruit our teachers from across the nation, with a focus on 
those with less than seven years of teaching experience. In particular, 
we seek teachers who have deep passion for their subject, who share our 
belief that all students can succeed in a rigorous college preparatory 
program, can use data to guide their instruction and are strong 
learners willing to push themselves. We source our teachers from Teach 
for America alumni, other district schools, second-career teachers, and 
local colleges and universities.
    We provide robust professional development for our teachers 
throughout their first year at DSST, including an extensive summer 
school program. Our teachers are provided a week of intensive training 
followed by an opportunity to teach in one of our summer school 
programs to apply and hone their skills. New teachers join our current 
school teams for two more weeks of professional development prior to 
the school year beginning in August. Our teachers set goals at the 
beginning of the year to improve their teaching. Throughout the year, 
teachers receive regular feedback on their growth towards those goals 
from their peers, teacher leaders and instructional leaders in our 
schools.
    Finally, I would be remiss if I didn't share with the Subcommittee 
the important role that our charter status plays in our success. We are 
fortunate to have a very healthy and collaborative relationship with 
our school district, Denver Public Schools. But as a charter school, we 
have the freedom to design our curriculum, and autonomy in the hiring 
of our teachers and monitoring their performance. And we are able to 
demand a high level of rigor from our students and teachers.
    DSST hires 70-80 new teachers each year. And as I mentioned 
earlier, we recruit from across the nation. We also have the 
flexibility to seek out teachers from non-traditional sources, and we 
are free from the certification requirements, timelines and other 
hiring restrictions that traditional public school systems are faced 
with. In addition, we have flexibility on pay schedules and thus give 
our teachers performance-based raises. Our teacher evaluations are 
based on teacher self-reports, peer input, administrator evaluations 
and student data. DSST Public Schools is currently developing a teacher 
career pathway where teachers will be provided a clear continuum and 
pathway to develop towards being a master teacher. Fifty percent of a 
teacher's evaluation will be based on student achievement data.
    In closing, I would like to leave the committee with three key 
thoughts on how to best replicate the success of schools like mine.
    First, support the federal Charter Schools Program. This program 
has been a life-line to thousands of charter schools, including DSST. 
Without the start-up support from this program, I would not have been 
able to open my school.
    Second, my school is already governed by a set of rules and 
regulations outlined in a charter agreement with my authorizer which 
allows me the freedom to run my school in exchange for outcomes. Every 
time the federal government comes up with a new rule or regulation that 
doesn't take into account the unique nature of charter schools, my 
ability to innovate is hampered and my charter agreement becomes less 
meaningful.
    Finally, the best way to get students interested in the field of 
STEM is to ensure that they have access to core content in this area 
delivered by an effective teacher. Teachers, who have subject matter 
mastery in the field of STEM, rather than just a teacher training 
degree and certificate, are better able to educate students in this 
field. Federal programs have allowed schools like ours to attract and 
retain an effective teaching workforce. I hope that you will continue 
to support these important programs.
    Again, I am pleased to be here today to discuss this very important 
issue. I hope I have shed some light on how DSST is able to succeed, as 
well as the importance of STEM-focused education, the importance of our 
charters school status.
    Thank for this opportunity and I would be happy to answer any 
questions.
                                 ______
                                 
    Chairman Rokita. Thank you, Mr. Kurtz.
    I thank the witnesses.
    As chair, I am going to defer my questioning until the end 
in the hopes of trying to accommodate as many of my colleagues 
who are present here today as we can and their schedules.
    So with that, I am going to recognize for 5 minutes, 
Chairman Roe, of Tennessee.
    Mr. Roe. Thank the Chairman, and thank you for calling this 
very important hearing. And before we go on, I have to do a 
shout-out to my 10-year-old granddaughter whose birthday is 
today, and I am sorry I am not home to celebrate it with her.
    But what a great bunch--what a great testimony and great 
panel, and I think what you all have done and what the 
testimony from both the Chairman and Ranking Member have laid 
out the problem in this country, and I am--I don't know the 
solution. And the problem is STEM jobs are going to grow twice 
as fast as other jobs in this country. That is a fact.
    We are going to--80 percent of the jobs in the next decade 
require technical skills. I have an auto manufacturing piston 
plant in my district that 10 years ago had 16 people on the 
line; today they have 2. And those 2 people are highly educated 
in math and engineering technology, computers, fixing robots.
    So they need 2 people who are as productive as 16 were. 
That is the skills that are required today.
    And of the 20 fastest-growing occupations, 15 of them 
require significant math and science preparation. So we have 
this, and here is the problem: We have 3.8 million ninth-
graders in the country and only 230,000 of them choose a STEM 
degree in college, which means--not all those kids go to 
college--that only 6 out of 100 end up with a STEM degree. That 
is a huge problem.
    We have 3 million jobs in this country that are available 
right now, 12 million unemployed people that haven't been 
educated. So the question is--and I think the Ranking Member 
stated this very clearly--how do we encourage these kids--these 
students to get interested in science and technology? So I 
think that is the problem.
    I think, Dr. Schneider, you hit it on the head, too. There 
are going to be dwindling resources. So how do we maximize 
those resources?
    As Mr. Scott pointed out, this redundancy, and I think what 
we need to do, and hopefully we are going to do this, I think 
everybody on this dais understands that we have to in this 
country compete in a world economy now. And I know the 
committee last year took a trip to China and Korea and I have 
just looked at some STEM graduates there. In China, 45-plus 
percent are STEM graduates; Korea, 30-something out of--I mean, 
the number of kids who get this. In our country, 6 out of 100.
    So we are at a competitive disadvantage around the world, 
and I think that is the real challenge.
    And, Mr. Scott, I am going to direct my first question to 
you, is do we need a task force to look at all the science and 
technology programs and put that--and where it is more 
coherent? Whether just it may be a few--I don't know the answer 
to that--but where there is not so much overlap? And then to 
have some metrics out there to see whether they are actually 
working? And I think you certainly have the metrics to prove 
that, in your STEM academies, that it is working. There is no 
question about it.
    So, Mr. Scott?
    Mr. Scott. Mr. Roe, as I pointed out in my statement, it is 
important that the Administration develop a government-wide 
STEM education strategic plan. I know that is something that is 
in the works; it has been delayed.
    And as part of that plan, it will be important to ensure 
that programs have meaningful and transparent performance goals 
and measures so that we know what these programs are supposed 
to achieve. And it is also important that these programs have 
periodic evaluations so that at the end of the day, we know 
whether these programs are working or not.
    And I think those are key features of any strategic plan or 
any effort going forward to consolidate these programs.
    Mr. Roe. And it is kind of--I am--it is baseball season so 
I will quote Yogi Berra, ``If you don't know where you are 
going you might end up someplace else.'' And I think that is 
what we are doing in this country.
    A couple things: Not every--not one size fits all. In an 
urban area you might have one plan that works; in a rural area 
where I live, maybe something else. We use the Niswonger 
Academy for distance learning where I live and very rural 
schools in the mountains use distance learning, where they can 
have a highly qualified teacher, the number two thing you said 
that was important in your charter schools, where a child in a 
small, rural school has access to a high-quality teacher on the 
Web.
    The other thing we do in private-public partnerships is 
Eastman Chemical Company puts on the STEM Academy once a year, 
and they are--I went last year to it and it was to show kids 
how you can take a chunk of coal--carbon--and make things out 
of it. What you produce with it to get these kids as fourth-
graders interested and say, ``Hey, I didn't know you could make 
this--you could take a trainload of coal and out the other end 
comes this plastic bottle.''
    And so I think that is important to get kids interested 
early. And if they--if you don't get them interested in the 
elementary school, they are not going to have any interest in 
high school.
    So I think private-public partnerships, I think evaluating, 
as Mr. Scott said, whether these programs actually work, and 
then, because, as Dr. Schneider pointed out, the resources are 
dwindling.
    So I yield back with that.
    Chairman Rokita. I thank the chair.
    Ranking Member is recognized for 5 minutes.
    Mrs. McCarthy. Thank you again, Mr. Chairman.
    Mr. Kurtz, when you talk about your school as almost 60 
percent low-income and 75 percent minority, obviously for many 
of us--I live out on Long Island; I have a very large minority 
population. What practices do you feel that are probably the 
most important on what you are being able to do in your schools 
to have success among the most vulnerable and minority 
populations, and how do we transfer that into all of our 
schools?
    Mr. Kurtz. Yes. I think the most important thing is that we 
have a clear goal for all of our students. We are a non-tracked 
program and so we look at all of our students with the 
potential to be 4-year college graduates in a STEM field of 
study.
    And I think that our high schools particularly across this 
country are tracking kids according to lots of metrics--
oftentimes flawed metrics--that limit the potential and 
possibility of all students. And so I think that is the first 
practice is that there is a complete belief that all students 
can get there and that we will do what it takes to help them 
get there regardless of their background.
    Mrs. McCarthy. Do your students go to school all year 
round?
    Mr. Kurtz. They do not. We do have students who enter our 
program and will spend the summer with us before they enter 
school and then we do have an emphasis, particularly in high 
school, on every student participating in one very--you know, 
in-depth summer opportunity in the 4 years they are with us. So 
they may attend a summer program at a university, at a museum. 
And so we do commit to providing them year-round experiences 
but we do not operate year-round.
    Mrs. McCarthy. The data that, you know, we see is that--
especially in the minority communities--that students, whether 
taking their math and their science courses, but math seems to 
be the one that stands out, they lose all of that knowledge 
that they possibly have gotten through the past school year. 
How do you conquer that with your program?
    Mr. Kurtz. I believe that is a concern, but I would say 
that we have a very, I think, rigorous data program that allows 
us to track the mastery levels of students almost every day. 
And so we have the ability to understand where students are and 
to help them understand where they are such that they can make 
course corrections literally every day in how they are 
learning.
    And so I believe that math is a very important topic in 
this hearing because math does determine a student's ability to 
major in STEM fields in college, and we have a math curriculum 
in this country that I think is substandard to what it needs to 
be. Many kids never have the opportunity to study STEM in 
college because they have not been given the math preparation 
to do so.
    And so I do think that is a very important topic and we set 
that out as being a pre-calculus bar for our students so they 
all have the choice in college to study what they choose.
    Mrs. McCarthy. And just to follow up, all right, so the 
kids are getting a great education in school. Are their parents 
very involved in their education? Are they involved with 
following through, whether it is homework or following through 
on the weekends with different projects?
    Mr. Kurtz. I believe all of our parents care about their 
children's education. Many of our parents work two jobs; many 
of our parents are not in a position to help the way they would 
like because they are trying to make ends meet. But yes, our 
parents are involved and want the best for their children.
    I think oftentimes we have children who are first 
generation in their family to go to college and so there are 
barriers that our parents face that, whether it be working two 
jobs, whether it be their level of education that sometimes can 
hinder their best intentions. But in the end, we hold forth 
that all kids, regardless of their family situation, can attend 
a 4-year college and can be successful in a STEM field of study 
if we give them the right education in school.
    Mrs. McCarthy. Thank you.
    Mr. Scott, you mentioned that 83 percent of the STEM 
programs overlap but they are not redundant. So would you say 
that the programs that overlap, that doesn't mean that we 
should eliminate them? Are you recommending decreasing federal 
investment in STEM or are you recommending making investments 
more efficient?
    Mr. Scott. As we mentioned in the report, we think it is 
important, first of all, to have a government-wide strategy to 
direct these programs so that we know, ultimately, what we are 
trying to achieve. And beyond that, it is also important that 
we have rigorous evaluations in place so that we know what 
works and doesn't work and then be in a better position to make 
informed decisions about whether to consolidate or eliminate 
some of these programs.
    Mrs. McCarthy. Do you know how far along the Administration 
is as far as coming out with their plan to--I know that they 
are going to be eliminating some programs, but having a 
coordination?
    Mr. Scott. We have continued to work with the 
Administration on that. My understanding is that should be 
pretty imminent. And we will be looking at that plan to see to 
what extent, if at all, it addresses the recommendations we 
made in our report.
    Mrs. McCarthy. Thank you. I yield back.
    Chairman Rokita. Gentlewoman yields.
    Mr. Thompson is recognized for 5 minutes.
    Mr. Thompson. Chairman, thank you for this hearing.
    Gentlemen, thank you for being here to talk about STEM 
programs. This really is about, obviously, maximizing 
opportunities for our children through education, but it is 
about--even more so, it is about America's competitiveness and 
making sure we have a qualified and trained workforce.
    And I am very supportive of STEM, although, Chairman, I 
would prefer to call it STEAM, being an agriculture guy, I put 
that A in there, as well, because agriculture is all about 
technology and innovation and science today.
    Obviously the issues that we are facing--part of it is, you 
know, with having the workforce out there that is prepared to 
do STEM or STEAM jobs is, you know, it is--we are faced--it is 
compounded by the retirement of the baby boomers, obviously, 
exiting the workforce in droves, and the other one is just the 
limitation of children--of kids who are getting the education 
or choosing that education to go in there.
    So engagement into these STEAM career pathways continues to 
be a significant challenge, and I am, I co-chair the 
congressional bipartisan House Career and Technical Education 
Caucus, and I believe that we have a tried and tested way to 
provide early level exposure and engagement in these related 
fields.
    And so I am going to open this up to any of the panelists 
who have an opinion on this: Do you believe that strengthening 
career and technical education programs through rigorous 
academics would help alleviate the shortage of STEAM-or STEM-
related careers?
    Anyone have an opinion, weigh in on--Dr. Schneider?
    Mr. Schneider. As we look especially with the Boston Museum 
with technology and education, a lot of times that is where it 
has been within our curriculum is within the CTE programs in 
our schools. Over the decades, when a lot of us were in high 
schools they actually had shops and things like that that no 
longer exist in most places.
    I think that integrating that into, if you look at the 
Harvard report on Pathways, they talk about there are a lot of 
critical jobs that CTE-type graduates could easily fill that 
are high-paying, technical, and involves STEAM or STEM, 
depending on what you want to call it, background and needs.
    Moving to what the charter schools are doing and other 
schools around the country around STEM, one of the things are, 
as we can get parents, communities, corporations, and so on 
involved, I actually do believe that CTE, if it is not just 
relegated to a group of kids that are non-academic--I think 
that has been the past history. I think we have to show that 
there are pathways for students to go and get certifications 
within 2-year and 4-year colleges that give them good jobs that 
come through the CTE network.
    Mr. Thompson. Dr. Miaoulis?
    Mr. Miaoulis. Introducing engineering for all children 
would serve them well because it makes math and science 
relevant and also it shows them what technical careers are 
like. The problem in the U.S. is that engineering is something 
not very well understood by the public. The people think that 
engineers drive trains or repair things only, and the only 
engineer in popular TV is Simpson, in the cartoon, Homer 
Simpson. So it gives the wrong message to kids about what 
engineering is like.
    It is interesting, what you mention about career and 
technical education. In Europe, many European countries have 
approached us at the museum to help them introduce engineering 
in their curriculum, and not only because they want more kids 
to go into engineering, but they lack technicians. There is a 
big problem of finding technicians. We are partners now with 
Holland, and they have a big problem with technicians.
    So introducing engineering is a way to get kids at all 
academic levels into careers.
    Mr. Thompson. Mr. Kurtz?
    Mr. Kurtz. I would advocate for a dual strategy. I think 
CTE programs are very important but I also believe that unless 
we increase the rigor in our K-12 education we will not create 
the next generation of computer science innovators and 
engineers who truly need a very rigorous K-12 preparation to be 
admitted to engineering school. And so I think it is--one 
cannot be done without the other. I think it will be a flawed 
strategy unless we are looking at both increasing the CTE 
programs as well as increasing the rigor of our K-12 program to 
prepare the next generation of those kinds of fields.
    Mr. Thompson. Thank you, Mr. Kurtz.
    You know, one of the things I--at least my observation as I 
travel around and talk to employers, visit schools--I was just 
in a school on Monday before I came to Washington. I mean, we 
really need--this committee needs to look at what are the 
barriers to getting access--how does STEM education get crowded 
out by No Child Left Behind?
    So thank you, Chairman.
    Chairman Rokita. Gentleman yields.
    Mrs. Davis is recognized for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman. And I appreciate, as 
well, the subject that we are dealing with today.
    I think one of the concerns initially was whether or not we 
are focusing so much on do we have too many programs or are we 
not evaluating, but how--you know, what is it that we need to 
do to make certain that we have students who actually enter the 
STEM fields and who stay in the STEM fields? And I wonder if I 
could jump to that for a second and then come back, because--
what is your opinion?
    You mentioned, I think, Mr. Kurtz, about 45 percent in 
terms of post-secondary, but that means we have a lot of 
students who have that preparation and yet don't go into 
anything related in these fields in many cases. What do you 
think is at the crux of that?
    Mr. Kurtz. I think there are three keys. One is providing 
students with the academic background to demystify the rigor of 
STEM, and if we do a better job preparing them in math and in 
science and giving them challenging, rigorous curriculum, they 
will see STEM as achievable as opposed to something that is 
very difficult.
    I think the second thing that is really important is to 
expose them, and museums do a tremendous job exposing them. We 
try and expose our students through internships so they can see 
how chemistry class plays out in a research lab, how physics 
can play out in an engineering firm and actually see real 
engineers or chemists doing real work for our country.
    Mrs. Davis. So part of it is the exposure.
    And I wonder, just because I am limited in time, Dr. 
Schneider, could you respond to that, as well?
    Mr. Schneider. I would like to focus back on the impact 
teachers can have. And if you look at the STEM fields that we 
are concerned about getting more people into the STEM fields, 
it starts in our schools.
    And I am just going to use my personal anecdote. I am a 
U.C. Berkeley graduate in science. When I told people I was 
going to become a school teacher their reaction wasn't, ``Oh, 
great.'' Their reaction was, ``What?''
    So I think if we really think about these things, really, 
if we want--every high school teacher probably impacts between 
120 and 160 students a year. If we look at really trying to 
increase what I think can happen in STEM, I think we really 
ought to look at the teaching workforce and how we attract 
really high-quality teachers.
    And my hat is off to my colleague here on my left.
    That is a real issue. How do we get highly qualified 
teachers in the STEM fields, including--14 percent of the 
science teachers have never taken an engineering class in 
college----
    Mrs. Davis. Yes.
    Mr. Schneider [continuing]. So how do we expect them to 
teach technology and engineering?
    So as we look forward, if we are thinking about every 
teacher is exposing 120 to 160 students and we want to increase 
our STEM workforce--this goes for the math teachers, and 
hopefully in the future technology and engineering, these are 
the people that can excite tomorrow's future leaders in 
corporate fields of STEM. But I really, really come back to 
that.
    Mrs. Davis. Is it also fair to say, when we think about 
this in terms of the students who choose those fields, whether 
they are also making some honest economic decisions about where 
they want to go. One of the difficulties, and you may challenge 
this, but I know I have read that a lot of the jobs that are 
available have basically stayed at the same level in terms of 
wages over time. They haven't gone up as--they haven't for 
some, but entry level, I think students might look at that and 
think, ``Well, you know, there are some other fields out there 
that I could do a whole lot better.''
    Are we incentivizing enough for students to go into these 
fields? And I wonder if you could just also, in the limited 
time--when we talk about preparation for young people, one of 
the areas that we know that is so important, of course, is 
mathematics. And something we know about preparation is that 
music plays a very important role in mathematics and language, 
as well--the development of speaking and having many multiple 
opportunities, I think, to have language.
    In research, have we done enough work to see whether this 
actually does play a role and whether or not students tend to 
stay in these fields where they have developed many different 
ways of working with their brains, actually, so that they have 
a greater interest in staying in those fields as opposed to 
going into financial services? Is there----
    Mr. Miaoulis. The relevance of the curriculum I think is 
critical. Kids spend endless time learning how many legs a 
grasshopper has and how a volcano works, which are important 
things; but there are other things that are more important that 
are relevant to their lives, like the world they live in and 
how it works.
    As far as careers are concerned, kids that focus, that 
study engineering and computer science get great jobs and make 
a lot of money. My daughter is one of them. She graduated from 
Tufts last year and she is doing very well and she is very 
happy.
    So the jobs are available, it is just there are not enough 
kids going into these fields.
    Mrs. Davis. Thank you.
    Chairman Rokita. Gentlewoman's time is expired.
    We will now recognize Mrs. Brooks, for 5 minutes.
    Mrs. Brooks. Thank you.
    Mr. Kurtz, I am fascinated by the fact that your students 
are in internships 2 days a week. And I think what we have 
heard is that so many, as Dr. Miaoulis said, so many students 
really have no idea what engineering fields mean, or even what 
technology type of jobs are out there. Can you talk with us a 
bit more about how you have partnered, I assume, with companies 
or with employers to, you know, educate young people, and what 
grade do you do that, and a little bit more about the capstone 
project? But then also, how do we engage the private sector to 
partner more closely with the educational system in providing 
these internships?
    Mr. Kurtz. I do believe that the private sector is 
realizing the size of the problem they are facing with their 
future workforces. Lockheed Martin Space System has been one of 
our biggest partners, CH2M HILL. Many other partners have 
recognized that they don't have a future workforce unless they 
change the way they invest in the pipeline, which they 
understand now means K-12.
    And so we have found lots of willing partners who have 
realized that actually our students come in better prepared 
than their college interns, and so I think they are ready and 
willing to see this as a future investment because they have a 
huge problem on their hands down the line replacing their 
engineers, their--all the folks who do this work.
    So we have developed a wide network of corporate and 
university and nonprofit partners like the Denver Zoo, and the 
Denver Museum of Nature and Science, who are providing our kids 
with real-world experience and applying their work. They go two 
afternoons a week from 12:00 until 5:00, where they get to do 
real work in the workplace.
    Our senior project, I think you mentioned, is a way for 
them to synthesize, oftentimes, that internship experience or 
another interest into a project that is at college-level that 
they present in front of a panel of experts that includes a 
product. We have a student right now who is modeling population 
growth through the growth of slime. It is a fascinating 
project.
    We have had incredible projects that our students have put 
together that demonstrate to themselves that their work is 
meaningful. It can generate a new business, it can generate a 
new research opportunity that brings their experience together 
so when they go to college they are ready to participate, I 
think, in a whole different level than what I would say is 
memorizing facts and participating oftentimes in science and 
math in a very static way.
    Mrs. Brooks. On these internships, do the students, just 
out of curiosity and based on the type of student population 
you said you are working with--how do they get to the 
internships and actually, what kind of work are they doing? I 
mean, just kind of generally, what type of projects are they 
given as interns and do they continue on in the summers?
    And do you have, actually, an outreach person at your 
school that finds these internships? I mean, how do you, you 
know, keep that engagement going to, you know, build those 
partnerships?
    Mr. Kurtz. Yes. We do have an internship director who is 
integral, I think, in finding those partnerships. Students will 
also find their own, but we do a lot of work to help them find 
the right internship.
    Transportation is always interesting. We do have a very 
good bus system and our school happens to be located, one of 
our schools, right on the bus system, so we do that. We have 
also had employers who have been willing to pay for 
transportation. And so I think that is the size of the 
partnerships that we are developing.
    Like any internship, there are different levels of 
experiences, let's be honest. But in the best of worlds, they 
are working alongside professionals who are doing research, who 
are working on engineering projects, who are doing the real 
work and our students are having the opportunity to participate 
in that work at their level.
    And what we have found is that they have valued our 
preparation as high school students oftentimes more than they 
are getting from their college or graduate students in their 
internships. Lockheed Martin Space Systems has been a 
tremendous partner of ours where they--students will literally 
go there and do an internship and then work over the summer in 
their fabrication facilities for satellites and their work, and 
it has been tremendously fruitful, I think, for Lockheed as 
well as our students.
    Mrs. Brooks. Thank you.
    I would like to ask Dr. Miaoulis a little bit about 
teachers and their support by the private sector and companies 
that maybe, you know, provide training. What has, and is, the 
museum doing with respect to bringing together companies and 
teachers with respect to the curriculum?
    Mr. Miaoulis. There are a number of programs----
    Chairman Rokita. I am sorry. I am going to have to, maybe 
have you answer that a little bit later when we have some more 
time.
    Gentlewoman's time is expired.
    We will now hear from Mr. Polis, for 5 minutes, is 
recognized.
    Mr. Polis. Thank you.
    I want to welcome Bill Kurtz, from the great state of 
Colorado. I have been fortunate to have had the opportunity to 
visit the first campus of Denver School of Science and 
Technology at Stapleton and have been very impressed with their 
focus on preparing the next generation for career in STEM 
fields.
    And I want to reference some of Mr. Kurtz's remarks, 
specifically as they apply to charter schools. And Mr. Kurtz 
testified, ``First, support the Federal Charter Schools 
program. This program has been a lifeline to thousands of 
charter schools including DSST. Without the start-up support 
from this program I would not have been able to open my 
school.''
    I want to ask Mr. Kurtz how we can further improve the 
charter schools program to create more and incentivize the 
creation of more high-quality STEM schools across the country.
    Mr. Kurtz. Thank you, Member Polis. I appreciate your kind 
words.
    This is one of the most important investments I believe our 
country can make in K-12 education. I believe that the return 
on that investment for taxpayers has been tremendous in the 
creation of high-performing charter schools who have served all 
students, and in the context of this hearing, have done a great 
job of preparing all students for future STEM fields of study.
    And I believe that that investment continues to need to be 
increased and I believe that this investment is important to 
understand that the replication of schools like ours is 
dependent upon it. And we need to replicate more and more of 
these schools so that we can scale the impact that schools like 
DSST are having across the country.
    Mr. Polis. Some of the things we are looking at in a 
reauthorization of the program do include specific funds for 
replication and expansion, and also for interstate CMO systems 
as well, that we view it systemically.
    I want to now talk about kind of the charter authorizing 
process and in terms of best practices. You have been through 
this a number of times in different scenarios. We recall, when 
you first started, a very different DPS board than today. I 
think you are, in many ways, viewed today as a portfolio 
manager within DPS and have a very friendly climate.
    But how important were strong authorizing practices, 
having--being able to go to a state board, having other 
alternatives like a state chartering authority in the mix? How 
important were these things in your ability to grow and serve 
more students?
    Mr. Kurtz. I think they are very important. Number one, the 
more informed and capable the authorizers are, the better the 
schools will be, and I think that we need to create better 
schools across this country. And so I think the authorizer has 
a tremendous role to play there.
    At the same time, we need authorizers that also will look 
at results and understand that when you get the kind of results 
that our schools have gotten, that there is process that is 
important and process that is not important. And I think that, 
in this case, I think our authorizers have done a very good job 
of recognizing that we get outstanding results. In fact, our 
results are the top in the district routinely, and so that 
process needs to be one that is streamlined, that looks at the 
right issues, and that, in fact, helps us grow as opposed to 
hinders us growing.
    Mr. Polis. And then finally, I want to address the issue of 
diversity. You have been true to your mission and serve 60 
percent low-income families, 75 percent minorities. As the 
school performs better, we have a traditional issue in that you 
have upper middle class and others that want to increasingly 
send their kids to the school. How have you been able to remain 
true to your mission of serving at-risk kids in Denver at a 
time when more and more families choose to open enroll in your 
school?
    Mr. Kurtz. DSST, I think, has been a national leader in 
creating integrated schools. In our country, schools are 
resegregating in many places, and we need to do a better job of 
creating integrated schools in our country. And so one of the 
things that we have done is create low-income preference for 
some of our students, and I think that is a very important 
place where we can create diverse schools and not be overrun by 
middle-and upper-class families who see our schools as great 
opportunities for their kids, but we want to make sure we are 
serving all students in Denver.
    And those preferences are important and I believe that 
those preferences should be addressed in the charter school 
program because I think those are a problem right now.
    Mr. Polis. And it is true that you are specifically 
prohibited from having those preferences during the period of 
time that you are receiving federal funding under the charter 
schools program. Is that correct?
    Mr. Kurtz. That is correct and I think that is a wrong 
incentive.
    Mr. Polis. And you would suggest that we look at it in the 
reauthorization of the charter schools program, allowing 
schools to meet their missions of serving diverse populations 
as well, as part of their program.
    Mr. Kurtz. I think that is very, very important, 
Congressman.
    Mr. Polis. Thank you.
    And I will yield back my time.
    Chairman Rokita. Gentleman yields.
    Mrs. Roby is now recognized for 5 minutes.
    Mrs. Roby. Well, good morning. Thank you all for being 
here.
    I am the lone member of the Alabama delegation that serves 
on this committee, so travelling around not just my district 
looking at schools and visiting with parents and teachers and 
administrators, but even outside of the district. And in 
February I had the opportunity to go to Huntsville to 
Blossomwood Elementary, which is a STEM school, and there were 
bonuses all around. My third-grade teacher actually teaches 
there now so it was great to get to visit with her and listen 
to her share the experiences--Ms. Ingram--between what she was 
used to when I was in third grade and what she was getting to 
do at this school now.
    But I also got to go into the STEM lab with the children 
where Raytheon was the private partner that day, teaching these 
children how to make a mechanical finger. I mean, it was quite 
fascinating.
    And so just to shift gears back to the conversation that we 
were having about the private sector and the importance of the 
partnerships of the private sector in schools like Blossomwood 
Elementary and others. What can be done beyond this hearing 
room--and this is for any of you--beyond this hearing room 
today to encourage the private sector to engage themselves at a 
higher rate when it comes to STEM education?
    Dr. Miaoulis or Dr. Schneider, either one?
    Mr. Miaoulis. There are quite a few corporations that are 
very keen on supporting--especially introducing--engineering. 
Let me give you a couple of examples. Raytheon established a 
scholarship program for teachers to get retooled so they can 
teach engineering to children. Also, quite a few corporations 
now allow their employees to volunteer in schools and help 
teachers implement new technology and engineering curricula.
    Anything you can do to incentivize even further 
corporations to do that, that would be great. Great help.
    Also, corporations appreciate the federal funding we get 
because typically they want to fund dissemination activities; 
they don't necessarily fund R&D activities on developing new 
curricula. They look at the National Science Foundation or NASA 
as the funding agents to provide the initial funds and then to 
leverage it with their own funds.
    Unfortunately, a lot of the federal funds are not available 
for community organizations or museums like ourselves. They are 
focused either directly to school districts or universities. So 
we have very little access to a lot of this funding, 
unfortunately, and we reach a lot more kids than most of these 
programs. We reach about 5 million children now.
    Mrs. Roby. Well, it is just highly interesting to me that, 
you know, this--you know, even Raytheon being in an elementary 
school--I mean, this was a new exposure for me, but for them to 
realize the benefits to their future workforce by even being in 
that school that day at the elementary level, say.
    Does anybody else want to weigh in?
    Okay, thank you.
    And, Mr. Chairman, I yield back.
    Chairman Rokita. The gentlewoman yields back.
    Ms. Bonamici is recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman and Ranking 
Member, for allowing me to sit in this hearing today even 
though I am not on this subcommittee. This is a very important 
issue.
    And thank you to all the witnesses who are here today.
    The district I represent in Oregon includes the Silicon 
Forest, which is like the Silicon Valley only with trees, and 
it is the area of northwest Oregon that is home to great high-
tech companies like Intel. And making sure that these major 
players in our high-tech economy have the employees they need 
is really critical. And we know that when hiring, these 
employers as well as others in the district are also looking 
for, of course, the STEM education and experience. But they are 
also looking for the ability to innovate, and collaborate, and 
find creative solutions to problems, and to be flexible, and 
imaginative, and risk-taking, and ahead of the competition.
    So how do we make sure that these students who will 
eventually become employees develop those creative critical 
thinking skills? I suggest that the integration of arts and 
design into STEM learning is a way to enhance that learning.
    And with all due respect to my colleague who said that the 
A is for agriculture, the STEAM movement is incorporating arts 
and design into the STEM disciplines. With arts integrated into 
STEM disciplines, students become more engaged, better develop 
those creative critical thinking skills that they will need to 
contribute to an entrepreneurial economy.
    And I wanted to mention, my colleague talked about visiting 
an elementary school--STEM elementary school. In my district 
there is a STEAM elementary school where they are integrating 
arts into STEM and at the third-and fourth-grade level they 
were making the connection between worms and soil erosion and 
dirt and clay and then making pottery from that clay, 
integrating arts and science.
    And I think this is especially important--we have--we are 
talking about engaging girls and minorities, and I can't tell 
you how many times I have heard girls say, ``Well, I am not 
good at math,'' or, ``science is for boys.'' Research has shown 
that arts integration can significantly benefit girls and 
minorities and get them engaged, keep them involved in the 
curriculum.
    And in Beaverton, Oregon, in my district, the organization 
Young Audiences is helping to implement one of the i3 
Department of Education grants by bringing arts integration 
into local elementary schools.
    Dr. Schneider, I hear you have done some work with Young 
Audiences and I am interested in hearing your perspective on 
how the integration of arts and design can greater engage 
students in the STEM disciplines for all students, not just 
girls and minorities.
    Mr. Schneider. Yes, we actually have worked with Young 
Audiences and actually are involved, I think, as the evaluator 
on some of the i3s where they are involved. Our work with Young 
Audiences--having been at Stanford University, there was an 
arts educator, Elliot Eisner, there for years preaching, 
``Let's not get rid of the arts in the schools.'' Having been a 
STEM person in this, you learn a lot. As we look even 
throughout history you will see examples of great scientific 
thinking from people that are quite gifted in the music and 
other arts.
    I think our schools have had to make some tough choices and 
arts has been one of the places that has been really decimated 
in most of our schools--arts and music programs.
    I believe, and some of our work with Young Audiences, is 
looking at where are the opportunities for integration across 
the curriculum of the arts with the science and/or math, and so 
on. One example is, there is a lot of physics within dance. 
Things like that. I think we have to be creative.
    It comes back to my position about federal investment in 
education. This is a perfect example. We have put together 
proposals with Young Audiences and other arts groups to try to 
create STEAM--and we can call it agriculture or arts; I am open 
to either one. I actually think agricultural fits directly into 
the science and technology areas.
    But I think, such as to the National Science Foundation, 
the IES through the Department of Education, we have put 
together creative grants and they are very--you know, is a very 
competitive place where they are only funding 6 to 8 percent of 
the proposals submitted. And when you have a review panel 
basically made up of STEM types it is very difficult to 
convince them in these very, very tight fiscal times to move 
forward with things like that.
    But I really believe there is an opportunity, and I really 
hate to see only the very schools that have these private 
school foundations and places like that where the arts and 
music still are in our schools.
    Ms. Bonamici. I appreciate that. And you talked about tough 
choices, and maybe with more integration it won't be a choice, 
it will be an integration.
    Mr. Kurtz, in your school what arts programs do you have 
available?
    Mr. Kurtz. Arts have always been an important part of our 
program. We have a design course, as I said. We have had studio 
art. We are adding the performing arts this year. So I would 
agree, arts is a critical part of a well-rounded STEM 
education.
    Ms. Bonamici. Thank you.
    And my time is expired. Thank you.
    Chairman Rokita. Gentlewoman's time is expired.
    Ms. Foxx is recognized for 5 minutes.
    Ms. Foxx. Thank you, Mr. Chairman.
    And I want to thank the panelists for being here today.
    Mr. Kurtz, I will stick with you for a moment. It seems 
like you have developed an effective model you have been able 
to replicate in additional schools in the Denver area. What 
work, if any, are you doing with Denver Public Schools to 
replicate what you have learned across the entire system?
    Mr. Kurtz. Yes, I would say that we are very fortunate to 
have a very close relationship with Denver Public Schools, and 
that has not always been true across the country with districts 
and charters. We are equal partners in our work and I give 
Denver Public Schools and Senator Bennet, who was the 
superintendent, and now Tom Boasberg tremendous credit for 
seeing us as partners in their work.
    And so we have done great work with the district 
replicating what we do well and also us learning from the 
district. And I think there is a sense of collaboration around 
some of the practices we have in terms of opening schools one 
grade at a time, in terms of being very clear about the 4-year 
college goal, being very clear about expectations around the 
importance of math. I believe our school culture, particularly 
around looking at all students as 4-year college capable, are 
all things that I think we have shared with the district and 
that they have adopted in different forms.
    And so I think that is the promise of the charter school 
movement on one level is to be an innovative opportunity for 
public education, and I think we have realized that in Denver 
in pretty exciting ways.
    Ms. Foxx. That is wonderful. Thank you very much.
    Dr. Miaoulis, you hint at some of the problems with the 
way--some of the problems that exist with the way STEM subjects 
are currently taught in our classrooms. Can you expand a little 
more on why too little STEM education effectively engages 
students or prepares them to pursue post-secondary 
opportunities?
    Mr. Miaoulis. The relevance is a major reason, which I 
spoke about, and Dr. Schneider referred to the teachers--the 
teacher quantity and quality. Unless we pay science teachers 
more and incentivize elementary teachers to teach science, we 
are not going to solve the problem.
    The job opportunities of a science and engineering major 
are vast. And choosing a career that would pay less than half 
of what a student--a graduate could make in a corporation 
versus a school, you know, it is problematic.
    And also, public perception about engineering. As I 
mentioned to you, people don't understand what it is and unless 
you have a relative that is an engineer, you probably don't 
become an engineer. Seventy-two percent of U.S. engineers have 
had a relative that is an engineer.
    And as the demographics change and ethnic groups where 
engineering is not a traditional discipline become bigger part 
of the pie, we are simply going to run out of engineers unless 
we introduce it in schools as a regular discipline.
    Ms. Foxx. I used to be in education--a long time ago. And I 
want to--I will ask this question of either of the three of you 
involved in education.
    I was told a long time ago that overseas, calculus is often 
taught in the fourth grade, or it is certainly taught in the 
elementary school. And yet we wait until the end of high school 
to teach calculus and most people going to college have a great 
fear of taking calculus.
    Have you seen any experiences where calculus is being 
taught prior to high school, or is the information I got not 
accurate about calculus and the fact that it is so useful to 
people to be taught at a much younger age? Just start with Dr. 
Miaoulis and then just go down very quickly, if you could.
    Mr. Miaoulis. Well, my K-12 education was all in Greece, 
and I went to probably the best private school in Greece before 
I came to study here, engineering. And I did not have calculus 
and I did very well in college. I had a lot of more fundamental 
courses and a lot more science, and hands-on science, than my 
classmates had here in the U.S.
    I am not sure that calculus should be taught for every kid 
before they go to college. There are some other mathematics 
that for the people especially that will not become technology 
and engineering majors would be useful, like understanding 
statistics, for example, and simply understanding math you use 
for finance, like how do you calculate your mortgage payment--
basic things that should be part of the curriculum.
    I think the whole curriculum should be--we should take a 
closer look at the whole curriculum, and lots of the things 
that are there have been there since the 1800s and nobody has 
questioned why they should still be there.
    Chairman Rokita. Gentlewoman's time is expired.
    The chair recognizes himself for 5 minutes.
    Going back to Mrs. Brooks' last question when she ran out 
of time and she was directing a question to you, did you have 
anything further to add to that, Mr. Miaoulis?
    Mr. Miaoulis. On the corporations?
    Chairman Rokita. Yes.
    Mr. Miaoulis. I think I covered it, Mr. Chairman.
    Chairman Rokita. Okay. Okay, thank you. I will hear about 
that later.
    Mr. Kurtz, you indicated that you only--you don't have dual 
tracks, or no tracks in your curriculum, yet you--I thought I 
heard you testify that you are okay with dual tracks to cover 
C.T. and that sort of thing. So why doesn't your school have a 
C.T. track?
    Mr. Kurtz. Yes, we have staked out, I guess, a claim that 
we need both kinds of prepared students leaving our K-12 
system, but we believe the harder and the place that we have 
failed the most in this country is in the 4-year college ready 
STEM fields----
    Chairman Rokita. Okay.
    Mr. Kurtz [continuing]. For all students. And so we have 
said that is our focus and we will do that exceedingly well.
    Chairman Rokita. Focus is important, especially in the 
charter school world, and I can appreciate that. I just want to 
make sure that is clear. Someone else should focus on----
    Mr. Kurtz. Yes. I mean, I get accused of being anti-CTE. I 
am not anti-CTE, I just believe that many of our low-income 
students never have access to high-quality 4-year college STEM 
education.
    Chairman Rokita. Okay.
    And this next question is for you, Mr. Kurtz, Dr. 
Schneider, and Dr. Miaoulis, all of whom have talked about--all 
of you have talked about the need for training teachers in STEM 
in order to teach STEM. What about this idea--and I apologize 
if you mentioned it or alluded to it and I missed it--what 
about this idea of having persons retired from particular 
industries, subject matters, scientists, et cetera, come back 
to school and teach?
    Mr. Kurtz first?
    Mr. Kurtz. Yes. I think if they have a passion for children 
and a passion for education that their expertise can be very 
useful. One of our current principals was a former engineer who 
has done great work and his ability to speak about math in the 
context of engineering is a real capacity that helps his 
teaching.
    So I think there is room for that. I think we just have to 
be careful that those individuals are really committed to 
teaching as opposed to sharing their----
    Chairman Rokita. Why would they sign up after a career----
    Mr. Kurtz. Well, I just think----
    Chairman Rokita [continuing]. If they weren't interested?
    Mr. Kurtz. I think they certainly could sign up for that 
career, I just think that teaching is a very important 
profession.
    Chairman Rokita. Not sign up for another career but----
    Mr. Kurtz. Yes. No, I----
    Chairman Rokita [continuing]. After their career, why 
would----
    Mr. Kurtz. I think they are a good source of--yes, I think 
they are a good----
    Chairman Rokita. Okay.
    Mr. Kurtz [continuing]. Source of talent.
    Chairman Rokita. Dr. Schneider?
    Mr. Schneider. I agree. I think a lot of industry people, 
after they have worked in industry and retire and/or, in some 
cases I have had former people I have had in my teacher 
preparation programs that have lacked physics degrees and go 
into--they say, ``Well, when I can afford to go back into 
teaching I will,'' and actually, after 20 years in industry 
some of them have chosen, since they have been credentialed, 
have chosen to come back into that career.
    As I think was pointed out by the former--Mr. Kurtz--I 
think the important thing is, not only that they would--they 
are interested in teaching but understand the complexity of 
teaching, and in some ways the students aren't necessarily just 
like they were. And I think that is an awareness that people 
that have been in industry need to bring back and there are 
special programs to help people.
    There are also some industry programs now that are pulling 
people out for a period a day, and I think there are some 
interesting programs now around computer sciences started. And 
WestEd is trying to help scale the model that started within 
Microsoft of taking--this happens to be young computer science 
programmers that thought about going into teaching but decided 
they couldn't afford it, but now they are working and 
collaborating with schools. And this addresses corporate 
interest--collaborating with schools and bringing from 
industry--like, first period in the morning they put an A.P. 
computer science course or an introductory computer science 
course because the teachers aren't ready to teach it yet. So 
they actually work in this classroom for 2 years mentoring a 
teacher that has been designated and interested in learning how 
to teach an A.P. computer science class. And after the 2 years 
then that teacher is ready to have that industry person go back 
to their work.
    So there are a couple models within industry, and one is, 
if we can really increase the supply through expertise and 
content, then it is good.
    Chairman Rokita. Thank you.
    Dr. Miaoulis?
    Mr. Miaoulis. And sometimes teacher certification rules in 
various states prohibit folks from industry to enter the 
profession. I think they should be well-trained, but also, some 
flexibility on certification would also help.
    Chairman Rokita. Okay. Thank you, Doctor.
    Really quick--I have only got a couple seconds--Dr. 
Schneider, I can appreciate your view--it is shared--that we 
want to invest and put more money in these programs--put money 
in these programs. But with your experience in the industry 
don't you feel at all--don't you at all agree with the GAO 
report that some streamlining is necessary here?
    Mr. Schneider. I think in my written testimony I actually 
point out that I believe the GAO report does point out that 
there is overlap but the redundancy--and I will give you a 
quick example. If you were to look at what, let's say, NOAA 
does----
    Chairman Rokita. I am sorry. My time is expired. I will 
hear about that, too, if I don't cut myself----
    Mr. Schneider. Okay. I am sorry. I was just going to say, 
NOAA has climate-type people that work in that field. That is 
their specialty. So I think the overlap may not be the issue. 
The big thing is the coordination.
    Chairman Rokita. Thank you, Doctor.
    And I thank the witnesses again.
    I now yield to Mrs. Davis for the purpose of closing 
comments.
    Mrs. Davis. Thank you, Mr. Chairman.
    I just wanted to recognize this outstanding panel, and I 
think that it would certainly behoove all of us to continue to 
stay engaged and listen to folks like you and others in our own 
communities as well as here, because there is so much we still 
need to learn. And the integration piece, which is true of just 
about everything that we do, is also critical--professional 
development of our teachers and providing incentives, and you 
have all been very helpful in talking about that, as well.
    Thank you, Mr. Chairman. Thank you for the hearing.
    Chairman Rokita. Thank you.
    I also want to thank the witnesses for your testimony here 
today. Been very helpful. I appreciate, and we all appreciate, 
your leadership.
    I associate myself with Mrs. Davis' comments that we still 
have a lot to learn, and I think the states--and as Dr. 
Miaoulis' points out, some of our local districts and 
certification standards, at least from the states that are 
doing it right, we can learn a lot from, and I hope we get to 
that part of it in the next hearing.
    But again, thank you very much, again, for your leadership, 
your testimony here today.
    And without any further business before the committee, this 
hearing is adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
